<html>
<title> - EXAMINING THE RE-DESIGN OF THE TRANSITION ASSISTANCE PROGRAM (TAP)</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






   EXAMINING THE RE-DESIGN OF THE TRANSITION ASSISTANCE PROGRAM (TAP)

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, SEPTEMBER 20, 2012

                               __________

                           Serial No. 112-77

                               __________

       Printed for the use of the Committee on Veterans' Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  U.S. GOVERNMENT PRINTING OFFICE

78-767                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                               __________

                           September 20, 2012

                                                                   Page

Examining The Re-Design of the Transition Assistance Program 
  (TAP)..........................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared Statement of Chairman Stutzman......................    32
Hon. Bruce L. Braley, Ranking Democratic Member..................     3
    Prepared Statement of B. Braley..............................    35

                               WITNESSES

Mr. Danny G.I. Pummill, Director, Veterans Benefits 
  Administration/Department of Defense Program Office, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs...     5
    Prepared Statement of Mr. Pummill............................    35
Mr. John K. Moran, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     6
    Prepared Statement of Mr. Moran..............................    38
Mr. Rhett Jeppson, Associate Administrator for Veterans Business 
  Development, U.S. Small Business Administration................     8
    Prepared Statement of Mr. Jeppson............................    43
Dr. Susan Kelly, Deputy Director, Transition to Veterans Program 
  Office, Office of the Under Secretary of Defense for Personnel 
  and Readiness, U.S. Department of Defense......................     9
    Prepared Statement of Dr. Kelly..............................    46
Brigadier General Robert F. Hedelund, Director of Marine and 
  Family Programs, U.S. Marine Corps.............................    18
    Prepared Statement of General Hedelund.......................    51
Brigadier General Jason T. Evans, Adjutant General, U.S. Army....    19
    Prepared Statement of General Evans..........................    53
Mr. Edward Cannon, Fleet and Family Readiness Program Director, 
  U.S. Navy......................................................    21
    Prepared Statement of Mr. Cannon.............................    55
Brigadier General Eden J. Murrie, Director of Services, U.S. Air 
  Force..........................................................    22
    Prepared Statement of General Murrie.........................    58
Rear Admiral Daniel Neptun, Assistant Commandant for Human 
  Resources, U.S. Coast Guard....................................    23
    Prepared Statement of Admiral Neptun.........................    60

                        QUESTIONS FOR THE RECORD

Hon. Marlin A. Stutzman, Subcommittee on Economic Opportunity to 
  VA Office of Congressional and Legislative Affairs.............    61

 
   EXAMINING THE RE-DESIGN OF THE TRANSITION ASSISTANCE PROGRAM (TAP)

                              ----------                              


                      Thursday, September 20, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:29 p.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Committee] presiding.
    Present: Representatives Stutzman, Braley, and Walz.

        OPENING STATEMENT OF CHAIRMAN MARLIN A. STUTZMAN

    Mr. Stutzman. Good afternoon. Welcome all of you to the 
Subcommittee on Economic Opportunity of the Veterans' Affairs 
Committee. I want to welcome you all this afternoon. And sorry 
for our tardy start. We are just done with a round of votes so 
we should have a good time to fulfill our time here in the 
Committee hearing.
    I want to recognize, we have got some folks in the back I 
believe that are here with the, I believe it was the Air Force 
Sergeants Association? Is that correct? If you all would want 
to stand we would like to just recognize you and thank you for 
your service. There we go.
    [Applause]
    Mr. Stutzman. And thank you very much for your service and 
for being here this afternoon. Of course, I want to thank any 
veteran or anyone who is serving in our military for your 
service. We appreciate you so much and for what you do for our 
country.
    We are here today to receive testimony on the redesigned 
Transition Assistance Program, or TAP. To differentiate between 
the original TAP and the redesigned version I am going to refer 
to the new program simply as TAP2. Kind of original there.
    TAP has been around for about 20 years with little change 
over that time other than to update the changes in the various 
benefit programs. And while the original TAP was let us say 
minimally effective, today's participants and today's civilian 
environment necessitated a revised approach from what has 
become known as death by power point. Until the passage of last 
year's VOW to Hire Heroes Act TAP was not mandatory except in 
the U.S. Marine Corps. And I am pleased that the other services 
have committed to comply with the VOW Act's mandatory 
attendance provisions.
    What the VOW Act did not do was describe what types of 
training must be provided under the mandatory attendance 
provision. And I would like to offer some thoughts on what TAP2 
should provide.
    Ultimately the goal of TAP2 is to smooth the way to 
civilian employment. That said, there are many paths to reach 
that ultimate goal and TAP2 should offer participants training 
that reflects at least the primary paths.
    Following discharge some servicemembers may choose to seek 
the full time permanent job path. Others will choose to use a 
path using their G.I. Bill or vocational rehabilitation 
benefits. Still others will choose the entrepreneurial career 
path or one involving training in the trades. So regardless 
mandatory TAP2 training must, and I repeat must provide 
detailed training in each of these areas. Otherwise we are 
failing that one percent who defend us.
    I have a couple of slides that I would like to illustrate 
why the tailored approach is so important. If you look at the 
monitors this first slide shows the importance of ensuring that 
individuals who are going to use their G.I. Bill get a full 
explanation of how best to use their benefit.
    [Slide]
    Mr. Stutzman. Slide one shows that four years of Post 9/11 
G.I. Bill benefits for someone attending a private institution 
amounts to over $141,000. I would point out that the numbers 
are averages and can be significantly higher.
    The second slide, if I would put that up on the monitor, 
shows the curriculum DoD is implementing for TAP2.
    [Slide]
    Mr. Stutzman. You will note that it does not provide a 
timeframe for instruction in the various paths that I have 
mentioned. Rather, days two, three, and four are devoted 
entirely to job hunting skills, something that is fine for 
those who intend to seek full time permanent employment 
following discharge. But what about a typical class made of 
mostly first term enlistees, 50 percent of whom indicate they 
intend to use their G.I. Bill benefits soon after discharge? 
What about those who want to start their own business, or enter 
trades? The DoD model of mandatory TAP2 as presented to us here 
on the monitor does not appear to include training tailored to 
their needs.
    I would offer that mandatory training must include those 
alternative paths and that forcing every servicemember to sit 
through three days of job hunting skills at the expense of 
training tailored to their post-discharge intentions is a poor 
use of resources.
    Slide three illustrates one way to achieve what I am 
suggesting.
    [Slide]
    Mr. Stutzman. To be fair, some DoD officials have indicated 
that students will have the ``option'' to attend more tailored 
training on days six and seven. But unfortunately there seems 
to be a mixed opinion from officials as to whether those days 
are considered as part of the mandatory training. My staff 
along with the Ranking Member's staff recently observed TAP2 at 
Randolph Air Force Base and Miramar Marine Corps Air Station. 
And at Randolph the class was mostly senior enlisted members, 
most of whom already had at least an associates degree and 
nearly all of whom intended to seek permanent jobs after 
discharge. They were given the DoD model, which was appropriate 
for that class' demographics.
    The class at Miramar included primarily first termers who 
received a more tailored model. Service specific pre-separation 
counseling, and VA benefits were condensed to one day of 
training. The Department of Labor workshop was condensed into 
two days of training, and the remaining two days allowed the 
Marines to choose a track that best fit their transition goals.
    The staff's observations were that the Marines enjoyed the 
choice of the tracks. The Marines confirmed that if the tracks 
had been pushed to a second week and were not mandatory their 
supervisors probably would not give them the extra time off. I 
say that not to criticize those supervisors, but rather to 
emphasize what may be a significant weakness in the DoD 
curriculum.
    It is clear to me that a tailored model is the better 
approach. A program of providing a core instruction summarizing 
the highlights of the details tracks followed by allowing the 
servicemember to choose a track as part of the mandatory 
coursework is in my opinion a superior approach to meeting the 
needs of TAP participants.
    Finally I want to address the oversight role of this 
Subcommittee. While I realize that what is now being taught 
under TAP2 is in formative stages, having DoD employees 
question Congress' oversight role is inappropriate. I hope that 
confrontational attitude regarding our constitutional oversight 
responsibility ends. We are all working towards the same goal, 
and I hope that we can work together to find what is most 
beneficial for our servicemen and women as they make the 
transition back into the workforce.
    I now recognize the distinguished Ranking Member Mr. Bruce 
Braley for his remarks.

    [The prepared statement of Hon. Stutzman appears in the 
Appendix]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Well Mr. Chairman, I think this is an 
appropriate time as this is our last Subcommittee hearing 
before the election to thank you for the great working 
relationship we have enjoyed with you and your staff. And we 
talk a lot about important policy in this Subcommittee but it 
is sometimes important to put a human face on that.
    And you were here when a constituent of mine named Andrew 
Connolly came and testified about some of the challenges he 
faced as wounded warrior who was in need of adaptability 
benefits to transition his home into a more livable 
circumstance. And because of that testimony and the great work 
of your staff and the Full Committee staff on both sides of the 
aisle, I am very proud that on August 6th the President signed 
into law the Andrew Connolly Veterans Housing Act, which 
doubled the benefit for temporary adaptability assistance for 
many of our wounded warriors who come home and frequently live 
in their parents' homes before they complete their education 
and go on to a more permanent residency.
    And Andrew Connolly died a year ago but I am very proud of 
the fact that I called his wife. It happened to be Andrew's 
29th birthday. And she was thrilled to know that his legacy 
will live on and help improve the lives of other wounded 
warriors. And that would not have happened without your 
cooperation and assistance and the great staff that we have on 
Veterans' Affairs. So I just wanted to thank you again for 
making that happen.
    I am also glad to have the opportunity to talk about the 
importance of the Transition Assistance Program because it has 
been one of the most important things that I hear about from my 
constituents who are in need of assistance when they are 
transitioning out into the civilian workforce. We have had 
field hearings on this in both of our districts. We have had 
great input from a variety of employers, from the largest 
employers in my district to the smallest. And we know that this 
is an ongoing obligation and commitment we have to make sure 
that we fulfill our promise to the people who serve this 
country in uniform.
    We know that TAP will help military members explore their 
career readiness and obtain the tools they need to apply in the 
civilian workforce and to pursue their Post 9/11 G.I. Bill 
secondary education benefits. I am pleased that we are leaving 
behind the more conventional route of one size fits all and 
death by power point, and moving toward a more individualized 
TAP plan. That is what we hear from people who are in need of 
that assistance. Our goal should be to provide service to men 
and women with a comprehensive Transition Assistance Program 
that prepares them for life after the military so they can 
pursue whatever endeavor they wish. Whether it is employment, 
education, or starting a new business. And I am hoping today we 
will hear from our witnesses on how we can work together to 
make that happen. With that, I will yield back.

    [The prepared statement of Hon. Bruce L. Braley appears in 
the Appendix]

    Mr. Stutzman. Well, thank you. And I want to thank you for 
your remarks as well. I want to tell you I have really enjoyed 
working together on this staff. We really have had a, I feel we 
have been able to accomplish a lot. And definitely hearing from 
constituents and servicemen and women as they make a difficult 
transition. So I want to thank you for your work and for Mr. 
Walz as well working together, and with our staff. I feel very 
good about what we have been able to do.
    Mr. Walz, would you like to make any?
    Mr. Walz. I defer to----
    Mr. Stutzman. Very good. Thank you. At this time I want to 
ask our first panel is at the table. With us today is Mr. Danny 
Pummill from the Department of Veterans Affairs, Mr. John Moran 
from the Veterans Employment and Training Service, Mr. Rhett 
Jeppson is from the Small Business Administration, and finally 
Dr. Susan Kelly from the Office of the Secretary of Defense. I 
thank you all for being here today. Let's start with Mr. 
Pummill from the VA, and we recognize you for your testimony 
with five minutes.

 STATEMENTS OF DANNY G.I. PUMMILL, DIRECTOR, VETERANS BENEFITS 
 ADMINISTRATION/DEPARTMENT OF DEFENSE PROGRAM OFFICE; JOHN K. 
     MORAN, DEPUTY ASSISTANT SECRETARY FOR OPERATIONS AND 
  MANAGEMENT, VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. 
DEPARTMENT OF LABOR; RHETT JEPPSON, ASSOCIATE ADMINISTRATOR FOR 
      VETERANS BUSINESS DEVELOPMENT, U.S. SMALL BUSINESS 
     ADMINISTRATION; AND DR. SUSAN KELLY, DEPUTY DIRECTOR, 
  TRANSITION TO VETERANS PROGRAM OFFICE, OFFICE OF THE UNDER 
    SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, U.S. 
                     DEPARTMENT OF DEFENSE

                STATEMENT OF DANNY G.I. PUMMILL

    Mr. Pummill. Yes. Mr. Chairman, Ranking Member Braley, 
members of the Subcommittee, I appreciate the opportunity to 
appear before you today to discuss the Department of Veterans 
Affairs Transition Assistance Program, or TAP. My testimony 
will cover what we are currently doing in the TAP program, the 
current TAP reengineering efforts, and the newly designed TAP 
pilots, and the program for entering the new TAP program. TAP2 
I will call it from now on.
    Currently TAP is conducted under the auspices of a 
memorandum of understanding between the Departments of Labor, 
Defense, Homeland Security, and VA. The departments work 
together to schedule briefings and classes on installations to 
best serve servicemembers and their expectation as they prepare 
for their transition from active military service. Quarterly 
meetings among the departments are held to oversee the 
operations of the program and plan enhancements to TAP.
    VA's current TAP briefings are provided by trained military 
service coordinators, MSCs, from the regional offices with 
jurisdiction over military installations in the United States 
and Puerto Rico. We provide these services to servicemembers 
stationed outside the United States through seven overseas 
MSCs.
    VA also provides transition briefings to demobilizing 
Reserve and National Guard servicemembers. These briefings are 
typically held at the Reserve component servicemember's home 
station upon completion of their deployment.
    At TAP briefings servicemembers learn about the array of 
benefits and services available from VA. Servicemembers learn 
how to complete applications and are advised about what 
evidence is needed to support their claims. Following the 
general instruction segment, personal interviews are conducted 
with those servicemembers who want assistance in preparing and 
submitting their application for disability compensation or 
other benefits.
    In October, 2011 VA joined the Department of Defense, the 
Department of Education, the Department of Labor, and the Small 
Business Administration in forming a team to develop and 
implement the new law. This five-agency team has met regularly 
over the past year and has developed a completely revised and 
enhanced TAP experience.
    The project team, with the assistance of the Department of 
Education, completely revised and enhanced the current VA 
briefing, creating a new adult education oriented briefing that 
is much more interactive. No more death by power point.
    Along with this new briefing we are in the process of 
developing a web-based version of the VA's portion of TAP to be 
available in both a web and webinar formats. We are also 
actively collaborating with the Department of Defense to create 
a virtual TAP experience. These virtual briefings will be used 
by servicemembers and veterans in lieu of the existing brick 
and mortar classroom.
    We have committed to ensuring that our newly designed TAP 
is available to 100 percent of departing servicemembers from 
all components by 21 November, 2012, as directed by Congress 
and legislation.
    The newly designed VA TAP briefing is being actively 
piloted at six primary locations. Our efforts to improve the VA 
portion of TAP include three main elements. Expand the training 
of our briefers; continually update our briefers; and greater 
oversight of the program. The classroom TAP presentation has 
been revised and updated, eliminating the briefing slides in 
favor of the interactive learning experience. Training has been 
completed on the new briefing and is being tested at the pilot 
locations. A web page has been created to keep our briefers up 
to date on all changes on benefits and resources.
    As part of the continual development of the VA portion of 
TAP, VA along with the Department of the Defense and our other 
agency partners are conducting continuous review interviews of 
the information and metrics coming out of our pilot locations.
    Mr. Chairman, we at the VA are proud of our continuing role 
in the transition of servicemembers from military to civilian 
life, and seek to continually improve the quality and breadth 
of our outreach efforts to active duty, Reserve, and National 
Guard members. We are aggressively piloting and developing 
implementation plans for the newly designed TAP and are excited 
about the opportunities it provides to our servicemembers and 
their families.
    Thank you for allowing me to appear before you today. I 
would be pleased to respond to questions from members of the 
Subcommittee.

    [The prepared statement of Danny G.I. Pummill appears in 
the Appendix]

    Mr. Stutzman. Thank you. Mr. Moran, you are recognized for 
five minutes.

                   STATEMENT OF JOHN K. MORAN

    Mr. Moran. Good afternoon Chairman Stutzman, Ranking Member 
Braley, and distinguished members of the Subcommittee. Thank 
you for the opportunity to participate in today's important 
hearing.
    My name is John Moran. As the Deputy Assistant Secretary 
for the Veterans' Employment and Training Service at the 
Department of Labor, I am proud of the work the department is 
doing to support our veterans, transitioning servicemembers, 
and their families.
    The Veterans' Employment and Training Service's mission is 
straightforward and easily remembered by our three Ps: prepare, 
provide, and protect. We prepare our separating servicemembers 
and their spouses to transition from the military to the 
civilian workforce through the Transition Assistance Program, 
which I will talk about in great detail in a moment. We provide 
them with the critical resources, expertise, and necessary 
training to assist them in locating and obtaining meaningful 
employment. We protect the employment rights of these brave men 
and women to ensure the jobs they left to serve our Nation in 
uniform are there when they come home.
    Since its inception, the TAP employment workshop has been a 
valuable tool for servicemembers transitioning into the 
civilian workforce. However, while the needs of transitioning 
servicemembers have changed, TAP had remained largely unchanged 
for 20 years. For example, today's servicemembers use social 
media as a key tool for a variety of purposes, including job 
search and networking. Twenty years ago social media was not 
even a term in our collective consciousness.
    Last year the department initiated a major effort aimed at 
revamping and updating the employment workshop to bring it up 
to date and current with emerging best practices in career 
development and adult learning. In doing so DOL worked with 
DoD, the services, academia, and veterans service organizations 
to make the workshop more engaging and relevant in light of the 
unique challenges our servicemembers will be facing as they 
transition into civilian life during a time of economic 
uncertainty.
    Aside from a new curriculum, delivery methods, and 
materials, the redesign of the employment workshop also 
includes new tools, such as My Next Move for Veterans to help 
servicemembers match their military experience to jobs in the 
civilian market that require similar experience, training, and 
skills.
    The redesigned DOL employment workshop has put increased 
emphasis on networking and how to effectively communicate to 
employers the value proposition of hiring veterans. This new 
three-day curriculum, which has been through a battery of 
acceptance testing, relies heavily on interaction and adult 
learning principles. Approximately 40 percent of the curriculum 
involves participant interaction or exercises. It is 
specifically geared toward the hard mechanics of getting a good 
job and includes exploring career interest, searching the labor 
market, building resumes, preparing for interviews, and 
negotiating a job offer.
    We have been delivering the new employment workshop over 
the past two months at seven pilot sites covering all services. 
The feedback has been very positive. We are confident the 
curriculum has been well tested, responsive to customer input, 
and inclusive of training best practices for adult learners.
    Through the Veterans Employment Task Force we worked with 
our partners at DoD and the VA and have integrated our workshop 
into the agreed upon GPS delivery model. Additionally, we have 
accommodated a Marine Corps request to modify the delivery 
approach of our workshop to facilitate the Marine Corps 
Pathways model. Both approaches ensure Soldiers, Sailors, 
Marines, Airmen, and Coast Guardsmen all receive the elements 
of the employment workshop as required by the VOW Act.
    As mandated by the VOW Act, DOL recently awarded a contract 
to GBX, Inc. to provide the instructor/facilitator cadre to 
deliver our new curriculum. We are well ahead of schedule and 
will be fully rolling out our new curriculum and contracted 
facilitation team at all TAP sites worldwide in January of 
2013.
    In conclusion, preparing separating servicemembers and 
their spouses for their transition to the civilian job market 
is central to our mission and we take that mission seriously. 
In the next five years over one million servicemembers will be 
transitioning from active duty to civilian life. We owe them 
the best services and benefits our Nation can provide. The 
department along with the rest of the administration is firmly 
committed to fulfilling that sacred obligation. We strive daily 
to do so through our programs and services designed to prepare, 
provide, and protect our veterans, transitioning 
servicemembers, and their spouses.
    Mr. Chairman, Ranking Member Braley, members of the 
Subcommittee, this concludes my statement. Thank you again for 
the opportunity to testify today. I would be pleased to answer 
any questions you may have.

    [The prepared statement of John K. Moran appears in the 
Appendix]

    Mr. Stutzman. Thank you. Mr. Jeppson, you are recognized 
for five minutes.

                   STATEMENT OF RHETT JEPPSON

    Mr. Jeppson. Chairman Stutzman, Ranking Member Braley, and 
members of the Subcommittee. Thank you for inviting me to 
testify. My name is Rhett Jeppson. I currently serve as the 
Associate Administration for Veterans Small Business 
Development at the U.S. Small Business Administration. I am 
also a veteran and have run a family-owned small business. I 
have submitted a full written testimony to the Committee which 
I request be made part of the hearing record.
    As small business owners, veterans continue to serve our 
Nation and create jobs in our communities. According to the 
most recent U.S. Census data, nearly one in ten small 
businesses are veteran-owned. These businesses generate about 
$1.2 trillion in receipts and employ nearly 5.8 million 
Americans.
    Research demonstrates that veterans over-index as 
entrepreneurs. In the private sector workforce veterans are at 
least 45 percent more likely than those with no military 
service to be self-employed.
    Today there are over 300,000 servicemembers transitioning 
from active service. To ensure that we are addressing the needs 
of these returning servicemembers, SBA is focused on providing 
the training, tools, and resources they need to make the 
transition from military servicemember to successful business 
leader. At the heart of these efforts is an initiative called 
Operation Boots to Business: From Service to Startup.
    Boots to Business is the entrepreneurial track of the new 
TAP, or Transition Assistance Program. Boots to Business builds 
on SBA's role as a national leader in entrepreneurship 
training. SBA is leveraging its ongoing collaboration with 
Syracuse University's Institute of Veterans and Military 
Families to provide comprehensive training materials 
specifically geared toward the transitioning servicemember.
    SBA's expert nationwide resource partner network, including 
the Women's Business Center, support chapters, Small Business 
Development Centers, and Veterans Business Outreach Centers, 
which already provide targeted, actionable, real world 
entrepreneurship training to over 150,000 veterans every year, 
will be responsible for delivering this training to our 
transitioning servicemembers.
    The Boots to Business program has three phases which 
include exposure to entrepreneurship as a potential career 
path. This will be offered to all servicemembers leaving the 
military. Following that, there is a two-day course focused on 
the development of a feasibility plan for a potential business 
idea. And then if interested a transitioning servicemember may 
enroll in an eight-week online course on the fundamentals of 
small business resulting in the development of a business plan.
    In June, 2012 Boots to Business pilot was launched with the 
Marine Corps at four locations: Quantico, Virginia; Cherry 
Point, North Carolina; Camp Pendleton, California; and 29 
Palms, California. In August of 2012 three Navy locations were 
added to the pilot: Anacostia; Kings Bay, Georgia; and 
Bethesda, Maryland. And in October of this year the U.S. Army 
will host its first pilot at Fort Sill, Oklahoma.
    Following our assessment of the pilot, we plan to roll out 
the program nationally to all the branches of the military in 
fiscal year 2013, subject to funding. We know our Nation's 
veterans helped reshape the American economy following World 
War II. They helped to build one of the longest periods of 
economic growth in our history and we know that they can do it 
again if they are encouraged and supported with the right tools 
and right opportunities. That's what Boots to Business is all 
about. And that is why we are committed to ensuring these 
amazing men and women have the access and opportunity they need 
to fully realize their potential as entrepreneurs and small 
business owners.
    Thank you for your time in allowing me to appear before 
this Committee today.

    [The prepared statement of Rhett Jeppson appears in the 
Appendix]

    Mr. Stutzman. Thank you. Dr. Kelly, you are recognized for 
five minutes.

                  STATEMENT OF DR. SUSAN KELLY

    Ms. Kelly. Good afternoon, Chairman Stutzman, Ranking 
Member Braley, and the distinguished members of the 
Subcommittee. I appreciate the opportunity to be here today 
with my colleagues from the Departments of Veterans Affairs, 
Labor, and the Small Business Administration, and the military 
services, to discuss the redesign of the Transition Assistance 
Program know as TAP.
    TAP, the cornerstone of the department's transition 
efforts, is a collaborative partnership between the Department 
of Defense, the Department of VA, and the Department of Labor, 
and is the primary program used to deliver an array of services 
and benefits information to separating servicemembers. Our 
overall goal at the Department of Defense is to ensure those 
who are leaving the service are prepared for their next step, 
whether that step is pursuing additional education, finding a 
job in the public or private sector, or starting their own 
business. To that end, the department and its partners have 
fundamentally redesigned TAP, making the needs of today's 
servicemembers and their families a top priority.
    The President has emphasized reforms to ensure every 
servicemember receives training, education, and credentials 
needed to transition to the civilian workforce, pursue higher 
education, and reach the goal of being career ready upon 
leaving active duty. Additionally the VOW Act of 2011 also 
contains specific TAP related provisions as discussed in detail 
in my written statement that we are required to implement by 
November of this year.
    The culmination of the TAP redesign efforts, the transition 
GPS, which stands for Goals, Plans, Success, encompasses the 
President's intent and the requirements of the VOW Act. 
Moreover, it establishes the new career readiness standards, 
extends the transition preparation through the entire span of a 
member's career, and provides counseling to facilitate the 
development of an individual transition plan.
    Transition GPS also recognizes the military services' 
cultural differences by allowing the services the flexibility 
to modify the program, but not change the program's 
standardized curriculum or mandatory learning objectives. The 
end state for servicemembers is to meet the career readiness 
standards for the career path they have chosen regardless of 
the branch of service.
    To implement the new TAP curriculum this summer we 
conducted seven pilots of the core curriculum, which includes 
the new DOL employment workshop. The pilots have provided us 
valuable servicemember feedback and we have engaged our 
partners to apply lessons learned and refine the curriculum 
based on this feedback to further improve the Transition GPS 
experience for our transitioning servicemembers.
    We are eager to pilot the Transition GPS optional tracks in 
education, career technical training, and entrepreneurship. 
These are scheduled for early 2013. They will allow 
servicemembers to tailor their individual preparation to 
posture them for successful civilian careers. In other words, 
they are career ready.
    Starting in fiscal year 2014 the department will migrate 
from our current TAP program, which occurs at the end of the 
military career, to an innovative military life cycle 
transition model that will start at the beginning of a 
servicemember's military career. The objective of the model is 
for transition to become a well planned, organized progression 
that empowers servicemembers to make informed career decisions 
and take responsibility for advancing their personal goals.
    Servicemembers will be made aware of the career readiness 
standards that they must meet long before they separate. They 
will be engaged throughout their military careers in mapping 
and refining their development plans to achieve their military 
goals and their post-military goals for employment, education, 
career technical training, or starting their own business.
    In closing I want to note that the department expects 
approximately 300,000 servicemembers per year to participate in 
the redesigned TAP over the next four years. The end state for 
this program will be manifested by a population of 
servicemembers who have the tools and resources to empower 
themselves to make informed career decisions, be competitive in 
the workforce, and continue to be positive contributors to the 
community as they transition to civilian life.
    Mr. Chairman, that concludes my statement. On behalf of the 
men and women in the military today and their families, I thank 
you and the members of this Subcommittee for your steadfast 
support and leadership in this important area. I am happy to 
answer any questions you or the other members of the 
Subcommittee may have.

    [The prepared statement of Susan Kelly appears in the 
Appendix]

    Mr. Stutzman. Thank you. And I thank each of you for your 
testimony. And I will begin the questions. And to Dr. Kelly, 
the first question that I have, would servicemembers be 
required to choose what you have described as an optional track 
and to attend the track of their choice during the sixth and 
seventh days of TAP2?
    Ms. Kelly. Sorry. Can you repeat that?
    Mr. Stutzman. Yes. Would servicemembers be required to 
choose what you have described as an optional track and to 
attend the track of their choice during the sixth and seventh 
days of TAP2?
    Ms. Kelly. Thank you for that question. Because this lets 
me answer and describe how the TAP GPS is actually designed. 
What we started off with with the service TAP program managers 
was actually to answer the question what is it that our 
servicemembers need to posture them for a successful transition 
to civilian life? We talked about the concrete products that 
they needed to show that would make them career ready. We 
started off with the end state, and that end state is the 
career readiness standards. And those career readiness 
standards are both common track and career track readiness 
standards. Meaning you have a financial plan for the first 12 
months post-separation, or you are registered in VA's ebenefits 
so we automatically have them connected to Veterans Affairs. 
Those are a couple of examples of the common readiness 
standards.
    There are also readiness standards that are connected to 
other paths that a military member may choose. And those career 
readiness standards might be for education, a completed 
application to an appropriate college to which they can apply 
for G.I. benefits showing they can make informed decisions to 
what those colleges are. For a technical training path, if that 
is what they are choosing for their own individual plan, it 
would be an application to that technical training institution, 
or an acceptance from that technical training institution. So 
there are specific career readiness standards that military 
members must meet based on that choice that they make in their 
path.
    Mr. Stutzman. So let me understand. So would, so you are 
saying according to the path that they choose?
    Ms. Kelly. That is correct.
    Mr. Stutzman. So they would be required to choose an 
optional track?
    Ms. Kelly. They choose. It depends on what their plans are. 
If they are planning to go immediately into the civilian 
workforce they have to meet the career readiness standards for 
employment. If they are choosing to go onto college or a 
community college, they have to meet the career readiness 
standards for that particular path. The same for technical 
training.
    Mr. Stutzman. So would the tracks be mandatory as a matter 
of the DoD policy?
    Ms. Kelly. Well the issue is that, first of all, we are in 
agreement that one size does not fit all.
    Mr. Stutzman. Okay.
    Ms. Kelly. The military member gets to choose the path that 
they want. When they choose the path, they then tie themselves 
to meeting those career readiness standards.
    Mr. Stutzman. Okay. Let me----
    Ms. Kelly. And the curriculum and the path is what builds 
the skills to make them career ready.
    Mr. Stutzman. Let me ask you this. You state that we must 
align the curriculum along all partner modules. Does that mean 
that every service will deliver the exact same curriculum 
model?
    Ms. Kelly. We have allowed flexibility with the services. 
What they have to do is provide the standardized curriculum, 
the learning objectives that build the skills for the 
servicemember to meet the career readiness standards.
    Mr. Stutzman. So the Marines, the Marine Corps would not 
have to adjust their curriculum then?
    Ms. Kelly. The Marine Corps has to ensure that their 
separating Marines meet the career readiness standards. We are 
not imposing a certain number of hours. We are not imposing on 
any servicemember that they must attend a particular path 
except what is required by the VOW, which is the DOL employment 
workshop. The law mandates that they attend that workshop. So 
we are not forcing military members to choose their paths. They 
choose those. What they have to do, and what each of the 
Services have agreed to do, is ensure that the military members 
meet the career readiness standards that are connected to the 
path that the individual members chooses.
    Mr. Stutzman. Okay.
    Ms. Kelly. One of the issues that we were criticized for is 
creating a program that seemed to be one size fits all. We have 
moved away from that. We have created the Transition GPS so 
that it is based on the military member's choice.
    Mr. Stutzman. Okay. Thank you. Mr. Moran, why do you 
believe the five-day model that tailors training to the 
immediate post-discharge needs of the servicemember is 
deficient compared to the model that requires all participants 
to attend the model that limits mandatory training to three 
days of employment focused training? Could you address that 
particular----
    Mr. Moran. Yes. Thank you for the question. I know that 
there is some confusion around this. First off, when the 
department undertook its revamping of its Transition Assistance 
Program employment workshop, we looked at what the law required 
the Secretary build and there were nine specific elements that 
we believed was necessary to meet the mark of Title X. We built 
our Transition Assistance Program workshop to those elements. 
We worked with academia. We worked with subject matter experts. 
And we worked with servicemembers and heard what they were 
looking for.
    We built a curriculum based on those needs which times out 
to be a three-day curriculum. Our three-day curriculum then we 
believe is what the VOW Act has told the Secretary of Labor to 
put together. We built that curriculum and worked with DoD and 
the services, and in the GPS model we found that that three-day 
curriculum works nicely within the five day period. With DoD 
beginning on day one, with DOL taking over on day two, three, 
and four, and VA coming in on the fifth day. And then all the 
tracks that any particular servicemember wants to pursue follow 
those mandated requirements.
    So I think in the process we get the best of both worlds. 
We meet all the VOW Act requirements but we also provide the 
flexibility and the addition transition assistance through the 
tracking or pathways process that the various services and DoD 
have put together.
    Mr. Stutzman. I may be a little confused here. Can any of 
you clarify, are days six and seven, are those mandatory?
    Ms. Kelly. It depends on the military members's choice of 
the path that they choose. What is mandatory is for them to 
meet the career readiness standards. The curriculum provides 
the skills building for young military members to be able to 
develop the products that show that they are career ready. We 
are mandating the career readiness standards----
    Mr. Stutzman. Okay, so----
    Ms. Kelly. --for the military member to meet. If they 
choose the path----
    Mr. Stutzman. Okay. So we are mandating, we are mandating 
readiness standards not necessarily mandating attendance?
    Ms. Kelly. We are not mandating a set number of hours. We 
are not mandating attendance. They have to meet the career 
readiness standards. For instance, you may have a very senior 
Lieutenant Colonel who is in the Air Force who has earned two 
masters degrees.
    Mr. Stutzman. Mm-hmm, sure.
    Ms. Kelly. But who wants to continue their education after 
separation. The servicemember has already gone through the 
process of choosing colleges. That particular military member 
can meet the career readiness standards.
    Mr. Stutzman. Okay.
    Ms. Kelly. They have done it before. But whereas you may 
have a first termer who is separating who is really daunted----
    Mr. Stutzman. Sure.
    Ms. Kelly. --by having to choose an appropriate community 
college or a four-year college. Who is overwhelmed by the 
application process. Who is not aware of the financial aid that 
is available to them other than the Post 9/11 G.I. Bill. The 
curriculum is built to help them meet those career readiness 
standards.
    Mr. Stutzman. Okay. That helps. Thank you. Mr. Braley?
    Mr. Braley. Mr. Jeppson, the Small Business Administration 
has a host of resources available to help any small business 
owner avoid the alarming rate of small business failures in the 
first year. And when we are dealing with veterans separating 
out, who may or may not have the type of background and 
preparation to be one of those successful small business 
owners, can you help us understand what this program will do to 
help them understand the importance of knowing what a business 
plan is? And financial plan? Having a qualified lender who can 
help you raise capital? And avoid all those missteps that you 
know from your personal experience so many small businesses 
struggle to overcome at a time when they are ready and full of 
energy and can't wait to get out there and start their own 
business. How are we going to help them with this program plug 
into that network of resources to increase the success rate of 
entrepreneurs who are in the program?
    Mr. Jeppson. Great, thank you for the question. I think 
that if I could boil it down to one thing. We are going to give 
them some training and education and just walk them through the 
basics of business ownership, the basics that they may or may 
not have depending on the rank and the service experience. But 
we will give them an opportunity to get into an even more 
detailed program in the eight-week course, which actually helps 
build a business plan. Along the way we will explain the 
fundamentals and then help them write the business plan.
    But the single most important thing that we do from the SBA 
is we help them. Is we will introduce them to the resource 
partner network that we already have in the SBA, with our 
SBDCs, the women's chapters, the VBOCs. Many of these have 
veterans officers in there to help specifically with veterans 
issues. And that we can introduce them to people who can mentor 
and help them along the way.
    So I think, as we give them some training, which will be 
valuable, is they go back home. They will be able to find their 
local SBA resource partner there who will understand how the 
banking system, the capital markets are in their area. And will 
have a better sense of the business market in their area and 
will be able to help them tailor their business plan. I believe 
that those three things will actually help us as we move the 
servicemember from service to a business owner.
    Mr. Braley. In my first term I Chaired the Small Business 
Contracting and Technology Subcommittee which dealt with a lot 
of the government procurement programs that had veteran owned 
preferences. Is that going to be a component of this program at 
all, given the fact that unfortunately so many of those dollars 
go into the area in the Beltway here when they are just as 
easily available to businesses outside of this area if we had a 
better way of educating and preparing people to take advantage 
of those procurement opportunities?
    Mr. Jeppson. Absolutely, yes sir. There is a module within 
the curriculum. And it is mentioned in the two-day curriculum 
briefly and then expanded in the eight-day curriculum on what 
the opportunities for veteran-owned businesses and then 
especially the service-disabled veteran-owned, which many of 
our veterans meet the qualifications for these days.
    Mr. Braley. I helped the Quad Cities Business Community set 
up a conference that is now an annual conference with the Rock 
Island Arsenal and a lot of the small businesses that are 
involved in procurement through the Arsenal. And it might be a 
good resource for this program to see how private businesses 
and local small business can come together and help educate and 
prepare people for those opportunities. And we would be happy 
to work with you if that would be of any assistance.
    Mr. Jeppson. Absolutely. We look forward to it.
    Mr. Braley. Mr. Pummill, one of the things I wanted to ask 
you about is the fact that we have talked about employment 
opportunities, we have talked about educational opportunities, 
we have talked about entrepreneurial opportunities, but there 
are people that are going through these programs who may have 
left right out of high school. They may be interested in 
learning a trade, serving as an apprentice. What are we going 
to be doing for them through this new revised program to plug 
them into ongoing existing apprenticeship programs to give them 
the type of job skills they might need that don't require a 
college education and don't require them going to work for a 
paycheck for somebody right after they separate?
    Mr. Pummill. One of the modules that we are offering in 
this program that all the agencies put together is a technical 
training module. That is one of the two-day add-ons. If a 
servicemember determines that he or she would like to go into a 
technical field, they would enroll in the technical module. The 
technical module is being developed and led by the Veterans 
Administration and the intent is to acquaint them with the 
tools.
    First of all, we want to find out based on your military 
occupation what you did in the military, your specialty, how 
close to you, how close are you to becoming an apprentice, a 
journeyman, or qualified in a trade? Can you advance in a trade 
based on that? What skills do you have? We provide them 
information on, let us say for example an individual wants to 
be an air frame mechanic and that is what he did in the 
military. And he wants to find out how he or she can be 
certified. We check out the certification. Then we find out, 
well where are you going to live? ``Well, I am going to live in 
Green Bay, Wisconsin.'' We make sure that there is jobs of that 
kind of Green Bay, Wisconsin. Or we advise the servicemember 
that, you know, this is a great field, this is a great way to 
become an apprentice in that field, to care for your family. 
But you might consider one of these cities because these are 
where the jobs are.
    It is a pretty good curriculum. We are about 80 percent 
done developing it right now. And it will be ready to roll out 
in about the next three weeks.
    Mr. Braley. Thank you.
    Mr. Stutzman. Thank you. Mr. Walz?
    Mr. Walz. Well thank you, Chairman, and the Ranking Member. 
Thank all of you for being here. It's great to see the 
collaborative approach. We obviously all want to get this thing 
right. We want to do morally right by our warriors. But it 
makes sense economically to get folks transitioned back to 
civilian life, get them working, and going forward. So I'm very 
appreciative to have you here.
    I am speaking a little bit as I look at this, and I hear 
where we are trying to get to. Having over the last, I have 
several Marines in my office who have gone through this. 
Myself, when I transitioned after a deployment in 2004 we, the 
chaplain showed us ``The Horse Whisperer'' and then we went 
home. And that was what happened. And, and my soldiers ask me 
the moral of that story and I was not quite sure.
    But, and then last October my Marines, I have one and I 
asked him to write down for me their experience on this. And 
coming back and actually doing this, returned from Afghanistan, 
six hours of class given by another sergeant. Nobody from VA, 
nobody from DOL, and not single mental health professional were 
present. Now I know we are all trying to get at this. And I say 
this not as derogatory or whatever. I think we should probably 
be asking that whole group of sergeants in the back. I am 
hearing about all these things they have to go through. They 
are simultaneously taking their warrior leadership courses, 
their ALCs and everything else. They are trying to figure that 
out. They are trying to move forward. How are we going to make 
sure that what looks good on paper is going to be implemented 
and have a result that actually does what we are supposed to? 
Because I think we are finally trying to get our mind wrapped 
around this.
    But I have to be very honest when I look at them, I really 
liked what you said, Dr. Kelly, about this military lifestyle 
transition. I think the only way you can do this is if it is 
built in, it is long term, and you do not just jam it down 
towards the end. Because I know how that goes. They want to get 
the heck out of there and go on and do whatever.
    And so it is not for lack of effort in many cases by all of 
our agencies. It is just, I am a teacher, our preparatory set 
is bad. They are not prepared to hear it, they are not prepared 
to go on. So how do we track this? How do we get buy in? 
Because first and foremost these warriors need to do their 
military job. And we never want to cross into that realm, where 
we are interfering with the job of the day or the mission that 
needs to be implemented. But we also have to be smart. We take 
them off the streets, transition them into warriors. It does 
make sense to transition them back into the civilian sector and 
not put up barriers to them.
    So I liked, Mr. Pummill, your point about this. And we have 
addressed this issue, or starting to, this vet skills to job to 
make sure your certifications cross over, make sure at the 
state level. But if each of you, I know it is a bit of a 
subjective question, tell me how we can ensure that we are not 
just adding another layer? Because I see those young soldiers 
in the back and I am guessing they are thinking, or Airmen, I 
hear they are saying, ``God dang it, it sounds like more for us 
to do.'' Just curious.
    Ms. Kelly. If I could take that, please? I think that is a 
great question and that is exactly why the response for the 
task force with all of our partners, we developed three phases 
of transition preparation with moving into the military life 
cycle being our goal.
    Each one of the services have already developed a schema of 
how they would start embedding transition preparation. Some of 
them start as early as basic training. Others start at that 
first permanent duty station. And part of the military training 
is to have a development plan. This is your MOS, these are the 
squares you are going to have to fill, if you allow me that 
vernacular, and this is the training that you are going to get. 
And here is your IDP. Some of the Services are actually looking 
at training even better their career counselors to also look 
long term and to help the military member look at their post-
separation goals.
    Again, the Marines and now much of the Army are first 
termers. You are going to be with us four years or six years, 
whatever. Look at that IDP. This is what you are going to get 
out of your military training. How does that match up with what 
you want to do when you separate four years, six years, 
whatever that might be after your first term? Because that is 
the model for some of our services. It is a first, we take most 
people for one----
    Mr. Walz. And this is just integrated seamlessly so it is 
not an addition at the end of the workday? Come over here and 
do this, or whatever? We are seamlessly putting it in so it is 
happening?
    Ms. Kelly. We are actually looking at the IDP, that 
individual development plan that military members already have, 
morphing that in into this individual transition plan. So that 
as they move towards the actual end of their military career, 
they are synched up.
    We are also looking at developing virtual curriculum. We 
are developing the curriculum in the GPS. We are trying to get 
the curriculum right and the skills building piece right first. 
And then embed this virtual curriculum. And actually looking at 
the services learning management systems right now.
    Mr. Walz. And we are going to field this as soon as 
possible?
    Ms. Kelly. The learning management systems are being 
reviewed now, we are still piloting the curriculum. We piloted 
some of the curriculum this summer. We are going to be piloting 
the education track, the tech training track, and the 
entrepreneurship in 2013. But we are going to embed all of that 
into a virtual curriculum so that it is available in a very 
high quality product. We have developed standards that we are 
all agreeing to for virtual curriculum. And embedding that into 
the learning management systems of each one of the services. 
That is where military members go anyway to get their online 
military training. Transition will be part of those same 
learning management systems.
    But it is a step by step process and we are just getting 
started. But we are excited to see it through to fruition.
    Mr. Walz. Thank you. I yield back, Chairman.
    Mr. Stutzman. Thank you. If I could, I have one more 
question for Mr. Pummill. The VOW Act requires that DOL 
contract for TAP instruction. What is VA's position on 
contracting for the VA portion of TAP? And why should not VA 
and DOL jointly contract for TAP2 instruction?
    Mr. Pummill. Mr. Chairman, we actually thought what DOL did 
was a great idea. I met with a senior member, the deputy over 
at Department of Labor, to look at the contract, see what they 
did, how they did it. With the thought of maybe we could use 
their contract and tie into it. It's a great contract. It was, 
you know, well written, it covers all the aspects of what they 
need to have done. The problem is it was too far down the road 
and out of scope for what we needed for the VA. So what I did 
was borrow a lot of what they had in their contract and we are 
developing a similar type contract for VA.
    We have not determined at this point whether we are going 
to permanently contract out or use government FTE, because this 
is a new task and new jobs. But what we do not want to do is as 
we are rolling this out and piloting it over the next year to 
18 months, we do not want to hire permanent civilian people, 
put them in a location, and then find out that maybe we got the 
through put incorrect, the number of servicemembers going 
through is not right, the time period is not right, and we find 
out we have got too many or too few people at a location.
    So we are going to start out with a contract option and 
then look at the contract option and do what is fiscally the 
right thing to do after we analyze it.
    Mr. Stutzman. Okay. Thank you. Any other questions from the 
Committee? Okay, thank you. You all are dismissed.
    I would like to recognize and invite our second panel to 
take the seats at the table. With us today on our second panel 
is General Robert Hedelund from the U.S. Marine Corps; General 
Jason Evans from the U.S. Army; Mr. Edward Cannon from the U.S. 
Navy; General Eden Murrie from the U.S. Air Force; and Admiral 
Daniel Neptun--Neptun, is that how that is pronounced?
    Admiral Neptun. Neptun.
    Mr. Stutzman. Yes, sir. Thank you. Sorry about that. From 
the U.S. Coast Guard. Welcome each of you and we will go ahead 
and start taking your testimony. And General Hedelund, when you 
are ready we will let you start. And you will be recognized for 
five minutes. And since you are a Marine, Marines are first to 
the fight. You are up.

 STATEMENTS OF BRIGADIER GENERAL ROBERT HEDELUND, DIRECTOR OF 
   MARINE AND FAMILY PROGRAMS, U.S. MARINE CORPS; BRIGADIER 
GENERAL JASON T. EVANS, ADJUTANT GENERAL, U.S. ARMY; MR. EDWARD 
CANNON, FLEET AND FAMILY READINESS PROGRAM DIRECTOR, U.S. NAVY; 
 BRIGADIER GENERAL EDEN J. MURRIE, DIRECTOR OF SERVICES, U.S. 
     AIR FORCE; AND REAR ADMIRAL DANIEL NEPTUN, ASSISTANCE 
        COMMANDANT FOR HUMAN RESOURCES, U.S. COAST GUARD

       STATEMENT OF BRIGADIER GENERAL ROBERT F. HEDELUND

    General Hedelund. Absolutely. We relish the opportunity. 
Mr. Chairman, Ranking Member Braley, and distinguished members 
of the Subcommittee, on behalf of the Commandant of the Marine 
Corps, thank you for your steadfast support of Marines. And 
especially your attention to the needs of veteran Marines.
    General Amos identified his commander's intent for 
transition assistance in his 2010 planning guidance. That 
guidance was direct and purposeful: revolutionize transition 
assistance. Later he provided additional direction. First, 
Marines must have skin in the game. Second, give Marines a 
choice of career transition pathways to include staying Marine 
through the Marine Corps Reserves. Third, ensure all mandatory 
training was completed. And fourth, all training must be 
provided by quality instructors at sufficient numbers to 
support the practical application of the training.
    Partnerships in this process are crucial. We have been 
working with Office of the Secretary of Defense (OSD), our 
sister services, and key departments throughout the federal 
government to transform our program and ensure our Marines and 
families are transition ready. Our transition readiness seminar 
remains a work in progress. With nearly a year of piloting and 
evolution of curriculum based on input from our Marines, we are 
nearing the desired end state and our Commandant's intent, 
which I stated here 15 months ago in this very room, our 
Marines want to attend our transition readiness seminar.
    So the question becomes, how can you help us? Number one, 
give us the flexibility to determine and deliver our program in 
a manner which best prepares Marines and families for 
transition while meeting established standards. Second, give us 
the ability to evolve our program as we learn more about what 
works best. Thirdly, consider the benefits of a virtual piece 
to transition, which we have already discussed at some length, 
to assist spouses and family members and for veteran reach 
back. And fourthly, continue to educate our country, as you do 
so well at this Subcommittee, on the benefits of hiring veteran 
servicemembers.
    I look forward to your questions.

    [The prepared statement of Brigadier General Robert 
Hedelund appears in the Appendix]

    Mr. Stutzman. Thank you. General Evans, you are recognized 
for five minutes.

         STATEMENT OF BRIGADIER GENERAL JASON T. EVANS

    General Evans. Chairman Stutzman, Ranking Member Braley, 
distinguished members of the Committee, thank you for providing 
me the opportunity to appear before you on behalf of America's 
Army. The United States Army is committed to ensuring the 
lifelong success of our soldiers. Preparing our soldiers for 
transition by enhancing the training and service models and 
beginning the transition process early provides the greatest 
opportunity for post-military success.
    The Army continues its commitment to support the soldier 
throughout the military life cycle, to include life after the 
Army. Our responsibility is to keep the soldier Army strong by 
providing essential counseling and training to ensure soldiers 
return to their local communities better prepared for civilian 
life.
    Under the transition policy signed by the Secretary of the 
Army in August of last year, transition is no longer the end of 
the service event. Under our new military life cycle model all 
new soldiers will receive counseling pertaining to their 
educational and career goals within 30 days of reporting to the 
first permanent duty station. They will also be required to 
create an individual development plan that is recorded and 
tracked and can be adjusted during their tour of duty. The 
individual development plan will also serve as the basis for a 
soldier's individual transition plan. Under the Army's new 
policy, transition is now the commander's program. 
Additionally, transitioning soldiers will have to attain career 
readiness standards for the first time rather than just attend 
briefings, create a resume, and fill out a job or school 
application.
    The Army Career and Alumni Program is actively engaged in 
testing and improved and expanded core curriculum and career 
readiness modules at various pilot assessment sites. We are 
staffing our installations, mobile and forward support teams, 
virtual center, and a 24-hour call center to be ready for the 
November 21, 2012 implementation date.
    In order to reach this goal we are adjusting our transition 
process in six phases. The first phase of implementation was 
creating the strategic plan. This occurred from January to 
April, 2012. Transition partners developed their respective 
curricula through the Office of the Secretary of Defense in 
coordination with Departments of Labor, Veterans Affairs, 
Education, Office of Personnel Management, and the Small 
Business Administration.
    Phase two from May through June, 2012 concluded 
modifications to support the contract and funding. These 
modifications included the expansion of software capabilities 
to capture soldiers' transition progress and risk assessment. 
They increased the number of counselors needed for forward 
transition mobile support teams, as well as installation 
centers.
    Phase three is currently in progress with an end date of 
November, 2012. During this recruit, hire, train, and pilot 
phase all new curricula will be developed and tested and new 
personnel are being trained. Pilots are currently active at 
several assessment sites to validate the Army's ability to 
implement the VOW Act transition requirements.
    During phase four, which we will begin November 21, 2012, 
Army execution of the VOW Act becomes fully operational. All 
soldiers will receive the mandated pre-separation counseling, 
Veterans Affairs benefits briefing, and the Department of Labor 
employment workshop. These mandatory requirements will be 
completed over a 12-month period before separation.
    Phase five will fulfill the choice based plans, success, 
and goals, and capstone requirement. This phase begins with 
core curriculum to include the requirements of incorporating 
the military occupational code crosswalk, the applications, 
financial planning, and individual transition planning courses, 
and ends with the capstone. The pilot will begin in March, 2013 
and conclude no later than October, 2014.
    The final phase is the military life cycle for transition 
and will be implemented no later than 2014. The military life 
cycle centers on pairing career readiness standards with career 
progression by synchronizing Army career tracker with 
transition training. The soldier will select a track based on 
career goals to include one of the following: employment, 
technical training, education, or entrepreneurial 
opportunities.
    We have invested a tremendous amount of resources and 
deliberate planning to preserve the all volunteer force. We are 
continued to ensuring soldiers who have sacrificed so much in 
service of America's defense are taken care of as they begin 
the next chapter of their lives.
    To conclude, I wish to thank all of you for your continued 
support. The Army is committed to being the leader of the 
Department of Defense transition efforts by finding the right 
solution for our soldiers and our veterans.

    [The prepared statement of Brigadier General Jason T. Evans 
appears in the Appendix]

    Mr. Stutzman. Thank you. Mr. Cannon, you are recognized for 
five minutes.

                   STATEMENT OF EDWARD CANNON

    Mr. Cannon. Thank you. Mr. Chairman, Ranking Member Braley, 
distinguished members of this Committee, I would like to thank 
you for the opportunity to testify about the Navy Transition 
Assistance Program, or TAP, soon to be TAP2, and our continuing 
efforts to successfully transition Sailors to civilian life and 
employment.
    I am pleased to discuss the current status of the Navy's 
Transition Assistance Program and how we will meet the Veterans 
Opportunity to Work Act that will be the foundation of our 
efforts to meet the career readiness standards of our Sailors.
    The Navy has continued to provide top quality transition 
programs to a very diverse group of Sailors who are within 24 
months of retiring or 12 months of separation. The Navy 
separates or retires approximately 39,000 Sailors each year 
from an overall force strength of approximately 322,000. In 
rough numbers approximately 50 percent transition after their 
first enlistment.
    Many Sailors are sought over by civilian employers because 
of the training and skills they obtained in the Navy and we 
have a robust transition program in place to prepare our 
Sailors who possess these skills.
    Every Sailor receives one on one pre-separation counseling 
to inform them of the programs and services that are available 
to assist them with their transition to civilian life. The Navy 
currently provides a four- to five-day transition workshop at 
Navy installations worldwide via our Fleet and Family Support 
Centers. Fleet and Family Support Centers also conduct first 
term and mid-career workshops in a four-day course to provide 
information that will enhance our active duty servicemember in 
achieving Navy and future civilian career goals.
    Navy is collaborating with OSD, Department of Veterans 
Affairs, Department of Labor, Department of Education, Small 
Business Administration, and the Office of Personnel Management 
to pilot a five-day curriculum that consolidates our current 
efforts with additional offerings designed to meet all elements 
of the VOW Act. This mandatory workshop will educate our 
Sailors on transition services that are available to them. It 
will help them translate their military training and experience 
into civilian skill sets and identify gaps in their training 
and experience that need to be filled to meet their personal 
goals, financial and individual transition goals.
    Employment workshops and benefits and application briefings 
will also be provided as well as workshops on higher education, 
technical skills, and entrepreneurship. A capstone event 
provided 90 days prior to separation will verify that 
transitioning Sailors completed the five-day curriculum and 
achieved their career readiness standards.
    In addition, all Sailors will be offered a warm hand off to 
appropriate government agencies and organizations that will 
provide our transitioning servicemembers continued benefits, 
services, and support as veterans.
    The Navy wants to retain trained, qualified Sailors to 
continue to protect and serve the country. For those who choose 
to separate or retire, we are committed to ensuring that they 
leave the Navy with tools to be successful in their career 
transition.
    Mr. Chairman, I have submitted the rest of my statement for 
the record and stand by to answer your questions. Thank you.

    [The prepared statement of Edward Cannon appears in the 
Appendix]

    Mr. Stutzman. Thank you. General Murrie?

         STATEMENT OF BRIGADIER GENERAL EDEN J. MURRIE

    General Murrie. Yes, sir. Thank you, Mr. Chairman, Ranking 
Member Mr. Braley, and distinguished Subcommittee members for 
the opportunity to discuss the redesigned Transition Assistance 
Program. As always, we greatly appreciate the leadership and 
support this Subcommittee continuously provides on matters 
affecting the readiness and quality of life for our Airmen and 
their families.
    The strategic direction for the Air Force Transition 
Assistance Program targets the emerging needs of our Active 
Guard and Reserve members and focuses on ensuring current and 
relevant solutions for today, tomorrow, and the years to come.
    I am very proud of the men and women in our Airmen and 
Family Readiness Centers and in our Education Centers. These 
are the members under the leadership of our installation 
commanders entrusted with the front line planning and day to 
day execution of transition support and services to our total 
force Airmen. We are strengthening our traditional Transition 
Assistance Program model to help forge a stronger Air Force 
community, evolving and expanding our services to meet the 
constantly changing needs of our Airmen and their families.
    The Air Force has a long history of providing support to 
its Airmen and families as they prepare to transition from 
military life back to the private sector. For years the Air 
Force has publicly stated that voluntary education is a primary 
recruitment and retention tool. Our members, enlisted and 
officers, take great advantage of this educational opportunity 
as we detail what is needed to help ensure maximum success in 
uniform and out.
    Consequently this same educational opportunity and the 
manner in which our members embrace it plays a key role in 
their preparation for transition back to civilian life at the 
end of their military duties.
    The redesigned Transition Support under the Veterans 
Opportunity to Work and the Veterans Employment Initiative 
result in even greater services and support to our separating 
and retiring total force members. Accordingly, we are closely 
linked with a wide range of partners to include the Office of 
the Secretary of Defense, Department of Labor, Department of 
Veterans Affairs, Department of Education, the Small Business 
Administration, and other agencies to ensure VOW and VEI are 
well executed.
    The Air Force is committed to sustaining this partnership 
as a critical platform to reaping the benefit of every 
opportunity and rendering sharp transition support and services 
to our Airmen and their families.
    Thank you for the opportunity to be with you here today and 
I look forward to any questions.

    [The prepared statement of Brigadier General Eden J. Murrie 
appears in the Appendix]

    Mr. Stutzman. Thank you. Admiral Neptun, you are recognized 
for five minutes.

            STATEMENT OF REAR ADMIRAL DANIEL NEPTUN

    Admiral Neptun. Good afternoon Chairman Stutzman, Ranking 
Member Braley, and the distinguished members of this 
Subcommittee. It is a pleasure for me to appear before you 
today to discuss the Coast Guard's Transition Assistant 
Program. On behalf of the men and women of the Coast Guard I 
thank this Subcommittee for its strong advocacy and support for 
our veterans.
    Consistent with the National Defense Authorization Act for 
Fiscal Year 1995, the Coast Guard established transition 
assistance for its military personnel in October of 1994. 
Pursuant to such all separating and retiring servicemembers are 
provided access to transition assistance services. 
Involuntarily separated members also receive specific benefits. 
As with the other branches of the armed forces, the Coast Guard 
is committed to ensuring our veterans are prepared for their 
transition from active duty to civilian life.
    While many features of the Coast Guard's Transition 
Assistance Program are similar to what the Department of 
Defense provides for transitioning members, there are some 
noteworthy differences between our services, our military 
members, and our programs.
    First, when compared to the other armed forces the Coast 
Guard is relatively small in size and its personnel are broadly 
dispersed geographically. Additionally, many of the skills and 
experiences that our Coast Guard personnel acquire over their 
careers, ranging from administrative to financial management, 
human resources to law enforcement, maritime safety and 
security, and environmental response are often considered 
readily transferable to the civilian workforce. Finally, 
although some Coast Guard members have served overseas in war 
zones the Coast Guard does not have the same proportion of 
combat veterans as the other armed forces.
    All of these factors are considered in developing and 
delivering transition assistance programs to best serve our 
Coast Guard members. The Coast Guard's program is designed to 
assist servicemembers and their families in making an informed 
and effective transition from military service to civilian 
life. An integral aspect of this vital effort is to ensure 
separating members are made aware of and have access to the 
numerous programs and services available to assist them in the 
transition process.
    The Coast Guard has taken steps to ensure our men and women 
receive the support they need to transition successfully. For 
example, command representatives meet with all members 
separating, retiring, or entering the disability evaluation 
system usually 180 days before separation but not later than 15 
days after official notification of separation. During pre-
separation counseling, which must occur at least 90 days prior 
to separation, the command representative assists members in 
achieving educational, training, and employment objectives as 
well as those of their spouse.
    Additionally, formal Coast Guard TAP seminars are delivered 
at our 13 Coast Guard bases. These seminars, developed in 
coordination with the Departments of Defense, Labor, and 
Veterans Affairs, provide instruction on skills identification, 
resume preparation, interview techniques, and veterans 
entitlements. Seminars typically are five days in length.
    The first three days include the core curriculum focused on 
the job search process provided by the Department of Labor. The 
last two days include presentations on veterans benefits, 
educational opportunities, TRICARE, retired pay, insurance, and 
the DD-214. Over the past several years approximately 1,600 of 
the 3,000 active duty and Reserve members who transition out of 
the Coast Guard each year elected to attend a transition 
seminar.
    Pursuant to the VOW to Hire Heroes Act of 2011, the Coast 
Guard is developing plans to increase the number of scheduled 
seminars offered. Given the dispersed location of Coast Guard 
units, the service is exploring alternative delivery methods 
for members that cannot physically attend a seminar. The Coast 
Guard is currently working with the Departments of Defense, 
Labor, and Veterans Affairs to develop a comprehensive virtual 
solution for members who, for whatever reason, cannot attend a 
seminar on person. And we look forward to continue working with 
those departments to share ideas and tools.
    Thank you for this opportunity to appear before you today 
and for your continued support of the United States Coast 
Guard. And I will be pleased to answer any questions you may 
have. Thank you.

    [The prepared statement of Rear Admiral Daniel Neptun 
appears in the Appendix]

    Mr. Stutzman. Thank you to each of you for your testimony. 
I will begin with several questions. First of all to General 
Hedelund. General, can you please tell us about the feedback 
you have received from the Marines who have participated in the 
tailored model and their view of the tracks? And do you believe 
that they would be better off with the model proposed by OSD?
    General Hedelund. Thank you for that question, Mr. 
Chairman. The feedback that we have received, as you well know 
I think, that we have been in this business for quite a while 
of revising our curriculum, as I mentioned in my oral and 
written testimony. And the feedback that we get from Marines 
focuses on the choice. They, that is probably the biggest plus 
that we get from our Marines, is that they enjoy the 
opportunity to choose. They recognize, of course, the 
importance of the information that is received from the core 
curriculum as well. But having a little control over what they 
are about to experience in transition seems to really do well 
with them.
    The, specifically if you are referring to the pilot in 
Miramar, we worked very hard with all of our partners to put 
together a package that best met our Commandant's intent of 
providing those pathways and quality instruction, but also 
complying with those elements of the VOW Act that are clearly 
mandatory.
    So the feedback we have received from that has been very 
good as well. There are, there were some other, there were some 
outliers, if you will. But overall it was a pilot, after all, 
and the whole idea with the pilot is to take those lessons 
learned, put them to work, refine the content, and then roll it 
back into future pilots and future full scale curriculum. So I 
think that, I think that covers the question that you wanted.
    Mr. Stutzman. Yeah. Could you touch a little bit on the 
lessons learned out of that pilot program?
    General Hedelund. I think, yes, sir. I think the first, the 
most important lesson that we can take away from that, from the 
pilot, and from doing this work together, is that the team is 
important. So while we sit here in Washington, D.C. and talk 
about how important this process is, what really is important 
to our individual Marines who are transitioning is how well 
does that team work out there at the installations where they 
are participating in the program?
    Mr. Stutzman. Yes.
    General Hedelund. As we stabilize the curriculum and we put 
these teams together that will be executing this work out 
there, it is imperative that they understand the holistic 
approach so that they are well integrated. Right now, it, 
because this, because pilots are pilots, and curriculum are 
sometimes being rolled out for the first time, there are 
obvious places where there may be either redundancy overlap or 
friction points that have to be worked on. So the closer that 
team works together over time, the better that program and that 
deliver of the curriculum will be.
    Mr. Stutzman. Yes.
    General Hedelund. So I think overall that is probably the 
biggest take away that we would say, is that teamwork is the 
key to success out there.
    Mr. Stutzman. Okay, thank you. Admiral, do you believe that 
the virtual TAP that you described in your testimony fulfills 
VOW Act requirements that all servicemembers attend TAP? And 
also, could you describe how that process works and the results 
that you are seeing?
    Admiral Neptun. Mr. Chairman, thank you for the question. I 
hope that virtual TAP for our purposes will allow us to expand 
to that other 47 percent of the Coast Guard that has not 
historically taken a TAP seminar. And that will help us get to 
compliance with the VOW Act. And it will also provide some 
choices. Because the, I think the best of e-learning is what we 
are really pursuing and collaborating with our sister services, 
as well as Department of Labor and Department of Veterans 
Affairs. We hope to come up with something that will really 
draw more people that tend to be reluctant to respond to a TAP 
seminar.
    The second part of the question, I missed that, sir.
    Mr. Stutzman. What kind of results? What type of feedback 
are you receiving on the virtual experience that you are giving 
to members?
    Admiral Neptun. Mr. Chairman, we do a fair amount of our 
member training, departmental requirements, Coast Guard 
requirements, through the virtual e-learning environment. And 
it seems to go quite well. There is always some challenge 
getting 100 people in a classroom at any given time. Giving 
people e-learning alternatives, they can pick the time of the 
day that they choose to do it. That is a huge advantage and 
that is also what we see as an opportunity for any sort of 
eTAPs that we are able to put together. It lets people do that 
during their time. And I am very inspired by what the SBA 
representative presented in terms of the eight-week online 
curriculum for people that want to become members of business. 
That is one of those tools I really look forward to offering to 
them as a way to get to their specific desires once they leave 
the Coast Guard.
    Mr. Stutzman. Okay. Thank you. And if I could, if you could 
just give me a yes or no answer to the question from each of 
you. Do you believe that the tracks where the student can 
choose a class that fits their transition goals should be made 
mandatory? And I will start with you, General Hedelund.
    General Hedelund. Absolutely.
    Mr. Stutzman. Okay.
    General Evans. Sir, not at this time. I would like to take 
it back and evaluate it.
    Mr. Stutzman. Okay. So a no for now?
    General Evans. Yes, sir.
    Mr. Stutzman. Okay. Mr. Cannon?
    Mr. Cannon. Similar to the Army. No for now, but we are 
looking at that possibility of making it mandatory.
    Mr. Stutzman. Okay. Thank you. General Murrie?
    General Murrie. Sir, the same for me. I would say no at 
this time. We need to look at it. Once again, it is new and I 
think it will be important to take it as we go forward and 
reevaluate.
    Mr. Stutzman. Thank you. Admiral?
    Admiral Neptun. Mr. Chairman, we are not looking to make it 
mandatory for people to choose a particular track.
    Mr. Stutzman. Okay. Thank you very much. Mr. Braley?
    Mr. Braley. General Hedelund, I know that Friday night was 
a tough night for the Marine Corps. And I just want you to know 
that my thoughts and prayers are with the families of 
Lieutenant Colonel Raible and Sergeant Atwell.
    And without reigniting this interservice dispute that my 
fearful Chairman started I just want to point out that I had 
the opportunity earlier this year to go back to Iwo Jima with 
12 World War II veterans who served there with my dad, who 
landed there the day both flags were raised on Mount Suribachi. 
And he landed on LST-808 that was piloted by Navy and Coast 
Guard personnel. And the mission was to clear the airfield so 
the Army Air Corps B-29s could land on Iwo Jima. And before he 
left Iwo Jima he was providing fire support to Army personnel. 
And General Hedelund, you said the most important lesson is 
that the team is important. And seeing you all sitting there, 
and thinking back on what my father experienced reminded me of 
why this is important.
    And I took the flag that was presented to my mother at my 
father's funeral, exactly 31 years to the day before I went up 
Mount Suribachi, up there with me. And when you go there you 
will see these totems that are left by Navy corpsmen for John 
Bradley, who is in the statue across the river commemorating 
the flag raising at Iwo Jima.
    And General Evans, I had the privilege of attending a 
wedding of a constituent named Ian Ralston, who was an Army 
combat medic, who is now paralyzed from the neck down. And he 
is living with one of the combat medics who served under him. 
And I was talking to his best man at the wedding about the 
difficulties he is having finding employment in the medical 
field despite the fact that his real world training would 
probably surpass anything he could get working through a 
nursing program or any other type of emergency medical 
personnel program.
    And I know Mr. Cannon, you identified opportunities to earn 
occupational credentials and licenses prior to separation. It 
seems to me with the huge demand in the healthcare field this 
is one of those areas we have to do a much better job of, is 
identifying all these specialty medical requirements in each of 
the 50 states and trying to find some way to standardize how we 
can transition trained medical personnel when there is high 
demand in the civilian community and they do not have to go 
through reeducation programs to relearn what they have already 
learned serving their country.
    So I would be interested in hearing from our panel on ways 
we can make that happen based on your experiences dealing with 
this problem.
    General Evans. Well sir, thank you for the questions. One 
of the things the Army is doing, the Training and Doctrine 
Command, we are doing just that. Experimenting with and 
piloting those particular military occupational skills that are 
being taught in the school. And can we get those to translate 
to an EMT in a particular state? So sir, I am with you on that. 
And so that work is ongoing right now.
    We are also, we have got a task force together looking at 
apprenticeship programs. Allowing soldiers who are 
transitioning to participate on duty time in those particular 
apprenticeship programs.
    General Hedelund. Sir if I may, first I want to make sure 
that I answered the question correctly about the mandatory 
nature. That applies to the Marine Corps. Okay? I would not 
want to say that we want to impose upon the other services. 
They have different demographics, they have different 
populations, and they have a different ethos and culture than 
the Marine Corps does. So we like the nature of a mandatory 
program but it may not work well for other services. That is 
number one.
    Number two, I appreciate your comments, Ranking Member 
Braley, about Otis. Otis, that is Lieutenant Colonel Raible, 
was an instructor of mine at Marine Aviation Weapons and 
Tactics Squadron 1 when I was the Commanding Officer (C.O.). So 
we were very, very close to him. And I appreciate your comments 
on that.
    And thirdly I will answer much like my Army brother did 
here about the credentialing piece. We are currently working on 
a pilot for our, because since we do not have medical personnel 
per se, we do adore our corpsmen. But we are putting together a 
pilot for our warehousemen and supply folks and also for our 
heavy equipment operators so that we can make that transition 
again for, whether it is a Commercial Driver's License (CDL) on 
the heavy equipment side, or credential required for the 
warehousing piece, to be much more smooth. And so I am looking 
forward to the opportunity to team with the private 
organizations as well as with the Army on making that work.
    Mr. Braley. Well I was able to drive an MRAP in Kuwait and 
my CDL expired a long time ago. So I just want to put that on 
the record, that I had a great time.
    Mr. Cannon. Congressman Braley, three quick points to go 
there. First of all, as far as looking at the skill sets we 
currently have 670 military career counselors embedded 
throughout the fleet. And so they on a daily basis are working 
with our military members to crosswalk those skill sets. To 
make sure that we are looking at not only today but how do they 
meet their career readiness standards and how are they 
preparing for the future?
    The second point, you talk about teamwork. We had great 
reports back on the Small Business Administration pilot that we 
held at Joint Base Anacostia/Bolling. And in that class we had 
Army, Navy, Air Force, Marine. We got great feedback. In fact 
the only thing bad about it was I got a call from MCPON and CNO 
saying hey, how come we did not get to go to this as well? It 
was very popular. We got very good feedback from that.
    And lastly, I just met today with Mrs. French, who is the 
ombudsman at large, and she hosted today, for the Navy, excuse 
me, she hosted today the Military Spouse Employment Program. 
And we specifically talked about credentialing for nurses and 
teachers and making sure that we can, from state to state, help 
our spouses out. I know this is specifically about veterans but 
it really all ties together. Are we looking out for how that 
can slide from your military career, from it being a spouse, to 
getting a job out in the community? So thank you, sir.
    Admiral Neptun. If I may, sir, I would like to use my wife 
as an example. It reminded me that our spouses are very much a 
part of that veterans equation. And I am in my 20th assignment. 
She has been a registered nurse and a nurse practitioner across 
a variety of states. She has had to keep credentialed in five 
different states. And it is more challenging for nurse 
practitioners to do that. So she has chosen to just sort of 
hold back for now until I settle down finally and then get back 
into the business of nurse practitioning. But it just is 
representative of the challenge that all of our spouses face as 
well. And for the members themselves, and try to match their 
credentials to what is available on the outside, we are very 
much in favor of finding ways to expedite and help people get 
there.
    General Murrie. Mr. Braley, like all of my colleagues we 
are looking at all of the credentialing. We have some very 
obvious skills that transfer very easily. Aircraft maintenance 
being one of those. But there are some not so obvious ones that 
we are making sure that we can take care of the folks that have 
those skills and make sure that they can transition to the 
outside.
    Mr. Stutzman. Okay, thank you. Mr. Walz?
    Mr. Walz. Well, thank you Chairman. I want to thank all of 
you for the professionalism, for the enthusiasm you bring to 
this task. It, this is a part of readiness and it has to be 
done. It is about keeping faith with those who are willing to 
serve and about letting folks know ahead of time. And as I 
said, I think it is not just fulfilling that moral 
responsibility, it is smart economics for this country in a 
time we want to use those dollars wisely.
    So I guess the question I would ask all of you is the devil 
is certainly in the details of delivering these. I want to make 
sure that we are not overly prescriptive because all of you 
will, you will take your orders from the civilian leadership 
and make it work. I want to know candidly if you think, are we 
providing the resources? Are we doing the right thing? Because 
I do think there is a, we have to be cognizant of the mission 
first that needs to be done. And then for you to be able to 
simultaneously deliver on a long range plan. Are we getting 
that right in terms of what we are prescribing in law that 
comes to you, and then is written into regulation, and then the 
resources to fulfill what we are asking you to do? Is that, 
from a leadership perspective are we getting it right?
    And I ask you to speak candidly if you can. It is just help 
us to get it. I know that, I understand that, I understand the 
nature of the question. But for me all I care about is for you 
to, I know you want to deliver it. Are we getting that part 
right?
    Admiral Neptun. Sir, I will speak from the perspective of 
the Coast Guard because we are probably the most resource 
challenged of all the services. And this is important enough 
that we will find a way to get there. And in terms of the tools 
that you provide through the VOW Act and others to give us a 
bar to reach for, I think it is absolutely the right place to 
be. Our veterans deserve every bit of that focus. Thank you, 
sir.
    General Murrie. Sir, I agree with that. I am really proud 
of the program we have now but every program can get better. 
And the VOW Act and the VEI give us some guidance and some 
direction and some resources to help us assist that. Over 90 
percent of our Airmen go beyond the mandatory pre-separation 
counseling for a three- to five-day course that we already 
offer. But we are going to make it better. We are going to do 
that with this direction. And so we appreciate the guidance.
    Mr. Cannon. Congressman, very similar comments. About 85 
percent of our folks currently go through the full TAP program. 
So anything we can do now that we are saying that it is 
mandatory, having that consistent curriculum, being forced to 
go through the pilots and learn from them, and then make 
adjustments has been very helpful. The only other concern we 
initially had, and we have worked through it, was there was 
honestly much concern about the amount of money required for 
computers and space. But we have worked through that. The Navy 
is very supportive of it so we are in the process now of 
rolling that out. And so we are looking very much forward to 
this program. Thank you.
    General Evans. Sir, we agree that we have the resources we 
need. The Army had started a study in 2009 by West Point and 
studied specifically the pre-separation program. And determined 
out of that that there was a couple of wins that we could get 
out of that quick. And that was one, getting commanders 
involved and making it a commander's program, and two, starting 
earlier instead of 90 days out. And so we issued an execution 
order in December, 2011, right before the VOW Act, became law. 
That, this is now a commander's program and soldiers will start 
12 months out. So we welcome the guidance, sir.
    General Hedelund. Sir, I think we are fortunate that we 
have a Commandant and his Mrs. who are both very focused on 
this as a high priority. So the Marine Corps will make 
decisions based on those priorities. So while there are 
portions of this that could be fiscally challenging we do meet 
those challenges with setting priorities appropriate to the 
need.
    We also would like to just state, as I mentioned briefly in 
my oral statement, that Marines are mission oriented. You give 
us the task, you give us the objective to achieve, and we will 
achieve the objective. Tell us to take the hill, don't tell us 
how to take the hill. And we will be more than happy to meet 
that expectation, meet those standards, and deliver a quality 
product.
    Mr. Walz. Well again, I am very appreciative of all of you. 
And I think we need to keep sight of that we are going to take 
care of every single one of these folks. And while the 
unemployment rate is too high, we are moving folks out into the 
sector. We are having successes. We are improving those 
numbers. And we will not be satisfied until we get it all 
right. But I do applaud you on certainly taking this for the 
spirit of what is behind it and making it work. So with that, I 
yield back.
    Mr. Stutzman. Thank you. And since we have you here, could 
each of you describe, or give us a timeline for each of your 
services, for the full implementation, the timeline for the 
full implementation of TAP2? I mean, if you could give us some 
idea----
    General Hedelund. Mr. Chairman, if you mean by TAP2 the VOW 
Act, VOW compliance, the Marine Corps is VOW ready today. Now 
we have to implement across the Marine Corps, but we have the 
pieces in place that we need to be VOW compliant today.
    Mr. Stutzman. Okay. Thank you. General Evans?
    General Evans. Sir, ditto. We are prepared to implement the 
VOW Act on the 21st of November.
    Mr. Stutzman. Okay. Is this at all locations?
    General Evans. Yes, sir.
    Mr. Stutzman. Okay. Thank you. Mr. Cannon?
    Mr. Cannon. Yes. We will also be VOW Act compliant on the 
November date. Yes.
    Mr. Stutzman. Okay. Thank you. General Murrie.
    General Murrie. Yes, sir. The same for the Air Force.
    Admiral Neptun. Mr. Chairman, we have our tools in place to 
get there. And as I mentioned, the e-learning capability I 
think will help us get to a much closer to 100 percent 
participation, which is our biggest challenge right now. We do 
approximately 60 seminars a year across the country. We need to 
get that up to about 100, maybe more, so that we can reach out. 
And we will do that as well as e-learning and I think we will 
be able to achieve the goal.
    Mr. Stutzman. Okay. Thank you. And you know, I would just 
mention that I would be interested in knowing more, or maybe an 
update down the road of how the success of e-learning is 
working for you all. And if it is something that, we can take 
look at and the success or the shortcomings of how that is 
working for your members. So----
    Admiral Neptun. Yes, sir.
    Mr. Stutzman. Thank you. Any other questions from any of 
the members? Okay. I want to thank our final panel. I would ask 
our Ranking Member if he has any closing comments?
    Mr. Braley. Well I just think that the amount of time we 
have spent in the last two years focusing on this specific 
program is justified by the demands for outplacement and 
preparation and information that is not just practical but is 
accessible. And so when we talk about things like e-learning we 
know that even though it may have some shortcomings, it is 
better than no learning. And so I think that our mission is to 
make sure that we are giving all the resources we can in the 
most easily accessible and retrievable way possible. So that 
not just during the initial demobilization but for as long as 
necessary afterward those resources can easily be retrieved by 
the servicemembers who need them and we can be proud of the 
product they are getting. And with that, I will yield back.
    Mr. Stutzman. Thank you. I hope today's hearing has shed 
some light on the need to continue our oversight of TAP2. It is 
just too important. As Mr. Braley mentioned, the work that we 
have put into it, and I know the need for those being 
discharged for employment is such an important aspect for them 
as they make the transition.
    I would say to the witnesses that I hope you will see some 
of the logic of making attendance in the various tracks 
mandatory and adjust TAP2 accordingly. This Subcommittee will 
continue to monitory the implementation of TAP2 as the full 
implementation is rolled out.
    I know that this Committee has discussed a possible trip 
sometime to view a training facility and I mentioned to staff 
that maybe we will see what the outcome of November and 
December looks like, but maybe we could find a time in December 
to possibly make a trip to see how programs are working.
    This is maybe the last meeting. Obviously I do not know 
what the next two months brings. But I just want to say thank 
you to each of you who serve in each branch for your service, 
and I want to thank our staff. And of course it has been a real 
privilege to work alongside both Mr. Braley and Mr. Walz and 
the other Committee members as well. And I hope that we can 
continue to work together to make sure that we do serve our men 
and women who serve us in our military the best that we can.
    So I ask unanimous consent that all members have five 
legislative days in which to revise and extend their remarks 
and include any extraneous material related to today's hearing. 
Hearing no objection, so ordered. This Subcommittee is 
adjourned.

    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Marlin Stutzman, Chairman
    Good afternoon. We are here today to receive testimony on the 
redesigned Transition Assistance Program or TAP. To differentiate 
between the original TAP and the redesigned version, I am going to 
refer to the new program simply as TAP 2.
    TAP has been around for about 20 years with little change over that 
time other than to update the changes in the various benefit programs. 
And while the original TAP was, let's say, minimally effective, today's 
participants and today's civilian environment necessitated a revised 
approach from what had become known as ``Death by PowerPoint.''
    Until the passage of last year's VOW to Hire Heroes Act, TAP was 
not mandatory, except in the U.S. Marine Corps, and I am pleased that 
the other Services have committed to comply with the VOW Act's 
mandatory attendance provisions. What the VOW Act did not do was 
describe what types of training must be provided under the mandatory 
attendance provision and I would like to offer some thoughts on what 
TAP 2 should provide.
    Ultimately, the goal of TAP 2 is to smooth the way to civilian 
employment. That said, there are many paths to reach that ultimate goal 
and TAP 2 should offer participants training that reflects at least the 
primary paths. Following discharge, some servicemembers may choose to 
seek the full time permanent job path. Others will choose to use a path 
using their GI Bill or Vocational Rehabilitation benefits. Still others 
will choose the entrepreneurial career path or one involving training 
in the trades. Regardless, mandatory TAP 2 training must, and I repeat 
must, provide detailed training in each of these areas otherwise we are 
failing that one percent who defend us.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    I have a couple slides to illustrate why the tailored approach is 
so important. If you will look at the monitors, this first slide shows 
the importance of ensuring that individuals who are going to use their 
GI Bill get a full explanation of how best to use their benefit. Slide 
1 shows that 4 years of Post-9/11 GI Bill benefits for someone 
attending a private institution amounts to over $141,000. I would point 
out that the numbers are averages and can be significantly higher.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The second slide shows the curriculum DoD is implementing for TAP 
2. You will note that it does not provide a timeframe for instruction 
in the various paths that I have mentioned. Rather, days 2, 3, and 4 
are devoted entirely to job-hunting skills, something that is fine for 
those who intend to seek full time permanent employment following 
discharge.
    But what about a typical class made of mostly first-term enlistees, 
50 percent of whom indicate they intend to use their GI Bill benefits 
soon after discharge? What about those who want to start their own 
business or enter the trades? The DoD model of mandatory TAP 2 - as 
presented to us - does not appear to include training tailored to their 
needs.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    I would offer that mandatory training must include those 
alternative paths and that forcing every servicemember to sit through 3 
days of job-hunting skills at the expense of training tailored to their 
post-discharge intentions is a poor use of resources.
    Slide 3 illustrates one way to achieve what I am suggesting. To be 
fair, some DoD officials have indicated that students will have the 
``option'' to attend more tailored training on days 6 and 7. 
Unfortunately, there seems to be a mixed opinion from officials as to 
whether those days are considered as part of the mandatory training.
    My staff, along with the Ranking Member's staff recently observed 
TAP 2 at Randolph Air Force Base and Miramar Marine Corps Air Station. 
At Randolph, the class was mostly senior enlisted members, most of whom 
already had at least an Associate's Degree and nearly all of whom 
intended to seek permanent jobs after discharge. They were given the 
DoD model which was appropriate for that class' demographics.
    The class at Miramar included primarily first termers who received 
a more tailored model. Service specific pre-separation counseling and 
VA benefits were condensed to one day of training. The Department of 
Labor employment workshop was condensed into two days of training and 
the remaining two days allowed the Marines to choose a track that best 
fit their transition goals.
    The staff's observations were that the Marines enjoyed the choice 
of the tracks. The Marines confirmed that if the tracks had been pushed 
to second week and were not mandatory, their supervisors probably would 
not give them the extra time off.
    I say that not to criticize those supervisors, but rather to 
emphasize what may be a significant weakness in the DoD curriculum.
    It is clear to me that a tailored model is the better approach. A 
program of providing a core instruction summarizing the highlights of 
the detailed tracks followed by allowing the servicemember to choose a 
track as part of the mandatory coursework is, in my opinion, a superior 
approach to meeting the needs of TAP participants.
    Finally, I want to address the oversight role of this Subcommittee. 
While I realize that what is now being taught under TAP 2 is in its 
formative stages, having DoD employees question Congress' oversight 
role is inappropriate. I hope the confrontational attitude regarding 
our Constitutional oversight responsibility ends now. We are all 
working towards the same goal.
    I now recognize the distinguished Ranking Member for his remarks.

                                 <F-dash>
               Prepared Statement of Hon. Bruce L. Braley
    I'm glad we are taking this opportunity to conduct oversight on the 
redesign of the Transition Assistance Program (TAP) once more before 
the end of this Congress. This is a critical stage in the program and 
we must ensure that the launch of the new TAP is successful in meeting 
the needs of our separating servicemembers. The TAP redesign is being 
lead by an interagency team composed of the Departments of Defense, 
Veterans Affairs, Labor, Education, and Homeland Security. I hope that 
all the agencies are working together to achieve this goal because the 
restructuring of this program is vitally important.
    TAP will help military members explore their career readiness, 
obtain the tools necessary to apply their military careers to the 
civilian workforce and understand the benefits of using their Post-9/11 
GI Bill to pursue a secondary education. The newly redesigned program 
gives participants a more tailored learning experience with updated 
content. I am pleased to see that we are leaving behind the more 
conventional route of ``one size fits all'' and ``death by power 
point'' towards a better individualized TAP.
    Our goal is to provide our service men and women with a 
comprehensive transition assistance program that prepares them for life 
after the military so they can pursue any endeavor they wish, be it 
employment, education, or starting a new business. I'm hoping that 
today we will hear our witnesses discuss how the newly revamped TAP 
reflects the priorities of this Committee to revitalize the program 
and, most importantly, how it will prepare our servicemembers for 
civilian life.

                                 <F-dash>
                   Prepared Statement of Mr. Pummill
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, I appreciate the opportunity to appear before you today 
to discuss the redesign of the Department of Veterans Affairs' (VA) 
support to the Transition Assistance Program (TAP). In July, 2012, 
President Obama announced a redesign of TAP to help our separating 
servicemembers successfully transition to the civilian workforce, start 
a business, or pursue higher education. My testimony will summarize 
legacy TAP, our redesign efforts, and our implementation of redesigned 
TAP.
Legacy TAP
    TAP is conducted under the auspices of a Memorandum of 
Understanding between VA and the Departments of Labor (DOL), Defense 
(DoD), and Homeland Security. The Departments work together to schedule 
briefings and classes on military bases to assist Servicemembers as 
they prepare to transition from active military service. Quarterly 
meetings among the agencies are held to oversee the operations of the 
program and to plan enhancements. VA TAP briefings are provided by 
trained military services coordinators (MSCs) from our regional offices 
on military installations in the United States and Puerto Rico. TAP 
briefings are also provided to Servicemembers stationed outside the 
United States by overseas MSCs who are temporarily assigned in the 
United Kingdom, Germany, Italy, Spain, Okinawa, Japan and Korea. In 
addition, VA provides transition assistance briefings to demobilizing 
Reserve and National Guard members. These briefings are typically held 
at the reserve component's home station after completion of a 
deployment.
    Attendance at VA TAP briefings has been voluntary, and 
participation has been at the discretion of each Military Service. In 
fiscal year (FY) 2009, VA provided 3,523 TAP briefings for 134,626 
attendees, while 276,615 Servicemembers separated from active duty 
status according to the Defense Manpower Data Center. In FY 2010, 
144,207 attendees participated in 3,918 TAP briefings, while 268,918 
Servicemembers separated. In FY 2011, 147,718 attendees took part in 
3,470 briefings, while 273,000 Servicemembers separated.
    VA believes that it is in Servicemembers' and their families' best 
interests to acquire a good understanding of Federal and state benefits 
that could impact their life, home, and work. Servicemembers who attend 
a TAP briefing are made aware of an array of VA benefits and services 
that can help ease their transition from the military to civilian life. 
Servicemembers are also advised of required supporting documentation 
and the process to apply for various benefits. Upon request, counseling 
services are provided by professional staff from VA's Vocational 
Rehabilitation and Employment (VR&E) Program. Information on VA 
benefits is predominately delivered in a non-interactive lecture 
format.
Redesign Efforts
    In the current labor market, which places a premium on job-ready 
skills and work experiences, knowledge of Federal and state benefits is 
critical to a successful transition from military to civilian life. As 
demonstrated by unemployment rates from DOL's Bureau of Labor 
Statistics, Servicemembers often find that embarking on successful and 
productive post-military careers is very challenging. In June 2011, the 
unemployment rate for post-9/11 Veterans was 13.3 percent. With a 
renewed focus on hiring Veterans in the public and private sectors, the 
unemployment rate for this cohort improved to less than ten percent in 
June 2012. However, VA and other stakeholders recognize that 
Servicemembers, particularly younger Servicemembers completing their 
first enlistment, would benefit from a more tailored TAP with a focus 
on employment assistance.
Administrative Action
    In August 2011, the President directed DoD and VA to lead the 
Veterans Employment Initiative (VEI) Task Force and provide 
recommendations to maximize the career readiness of all Servicemembers. 
The Task Force members met weekly for five months. In late 2011, the 
members recommended a comprehensive training and service-delivery model 
with an end-goal of strengthening the transition of Servicemembers from 
military to civilian status. The proposed model consisted of four key 
features: career readiness standards; transition assistance integrated 
into the military life cycle; an outcome-based training curriculum; and 
an end-of-military-career event.
    In early 2012, an interagency Executive Steering Committee was 
established to develop implementation strategies for the VEI Task Force 
principal recommendations. The core outcome-based training curriculum, 
entitled Transition Goals, Planning, and Success (GPS), consists of 
five days of instruction provided by the military services, DOL, and 
VA. In addition to the core Transition GPS, two-day electives are 
offered for three tracks- education, technical training, and 
entrepreneurship. Prior to separation, a Servicemember will participate 
in an end-of-military-career event where a designated official will 
certify that Transition GPS requirements have been fulfilled.
Congressional Action
    The VOW to Hire Heroes Act of 2011 was enacted in November, 2011. 
It required VA, DOL, and DoD to expand current programs to ensure a 
seamless post-military transition for Servicemembers. This legislation, 
in addition to the steps being taken by the VEI Task Force, 
aggressively addressed the high unemployment rate of Post-9/11 Veterans 
through a multitude of comprehensive provisions, including improvements 
to TAP, retraining opportunities for unemployed Veterans, and employer 
tax credits for hiring unemployed Veterans. In addition, the VOW to 
Hire Heroes Act mandated participation in previously voluntary portions 
of TAP by November 21, 2012, as well as pre-separation counseling, a VA 
briefing, and DOL's Employment Workshop.
VA Responsibilities--Redesigned TAP
    VA's portion of the Transition GPS includes four hours of 
interactive instruction, which replaces the previous lecture and slide-
deck presentation. The new format allocates one hour to VA education 
benefits and three hours to all other VA benefits and services. With 
assistance from the Department of Education (ED), a VA project team 
completely revised the current VA briefing, creating an interactive 
curriculum that incorporates adult-learning principles. This revision 
reduced the overwhelming number of slides by over 50 percent. Rather 
than viewing a static and lengthy slide presentation, Servicemembers 
will now participate in interactive activities that teach them how to 
review, apply for, and receive the benefits and services they have 
earned. To ensure that Servicemembers have access to all the 
information they need, VA has also developed new user-friendly 
classroom reference materials to augment this curriculum, including the 
VA Benefits Reference Guide, which highlights each benefit or group of 
benefits, outlines eligibility requirements, and provides actionable 
steps to access the specific benefit. The VA Benefits Reference Guide 
also provides web addresses and information on other resources to 
assist Servicemembers in making the most informed decision when 
choosing their benefit options. VA personnel have delivered TAP 
briefings in various venues, which are not always conducive to adult 
learning. Auditoriums and meeting spaces on military bases that can 
accommodate hundreds of Servicemembers are commonly used. In the newly 
designed TAP program, the number of Servicemembers attending the four-
hour VA benefits module generally will be 50 maximum Servicemembers to 
one VA instructor.
    VA was also tasked to lead development and implementation of the 
two-day technical training track, during which time Servicemembers are 
provided advice on different technical fields as potential career 
choices. In addition, VA is providing assistance to other agencies to 
develop the other two tracks, education and entrepreneurship, to ensure 
pertinent VA benefits information is included. All of the two-day 
elective tracks and the end-of-military-career event are currently 
under development. The number of students permitted to attend the two-
day technical training track has been limited to 50 students per 
instructor. A minimum student load has not been finalized and will 
depend on the number of Servicemembers who express an interest in 
attending.
    In addition, VA is in the process of developing a virtual version 
of VA's portion of TAP to be available in different eLearning 
modalities. Virtual briefings will mirror the classroom environment and 
will be used by Servicemembers where appropriate. VA is actively 
collaborating with DoD to define functional requirements for this 
virtual option. An interagency working group has proposed guiding 
principles for development of the virtual TAP curriculum to meet the 
needs of separating Servicemembers.
Implementation
    Successful implementation of the redesigned TAP is critical to 
providing servicemembers with the tools required for successful 
transition. VA continues to assess the number of Servicemembers who 
will participate and the resources required to provide an optimum 
delivery of services to military personnel and their families. VA has 
met with DOL officials to review the delivery of its portion of TAP by 
contractors and to determine if it is feasible, as well as legally and 
fiscally permissible to acquire the services of DOL for the delivery of 
the VA portion of TAP. VA expects to complete its analysis in the next 
60 days.
    VA will continue to work with Veterans Service Organizations (VSOs) 
located on or near military installations. VA informs Servicemembers 
that VSOs are independent of VA and can provide expert advice when they 
are interested in applying for VA benefits. The VA Benefits Reference 
Guide given to each Servicemember contains a link to information on VSO 
representatives in a specific geographic area. VA values the 
relationship we have with our VSO partners and the assistance they 
provide. We look forward to continuing this positive relationship that 
results in best outcomes and improved services for our Servicemembers 
and Veterans.
Demand-Driven Planning Factors
    The historical annual demand for VA TAP briefings has averaged just 
over 142,000 attendees between FY 2009 and FY 2011. Based on the VOW to 
Hire Heroes Act, VA is now required to provide a TAP briefing to all 
separating Servicemembers. As such, VA's planning model to implement 
the VOW Act and VEI Task Force requirements is demand-driven, using 
total separation numbers provided by the Military Services. For 
resource modeling purposes, VA currently projects that approximately 
307,000 Servicemembers will separate, demobilize, or deactivate per 
year for the next four years. The Military Services have provided VA 
with projected transitioning Servicemembers at all military 
installations in the United States and at overseas locations. For 
resource modeling, VA may need to have a presence 251 military bases, 
with VA staffing levels driven by the projected demand at each site. VA 
will continue to work with the Services throughout implementation to 
refine our resource requirements.
Pilot Sites
    Prior to any pilot being conducted, VA staff accompanied DoD 
personnel in performing site assessments to determine initial 
operational capabilities. During these site visits, interagency teams 
met with local military installation personnel to discuss 
infrastructure and operational requirements that needed to be in place 
for the pilot. The redesigned VA TAP has been piloted at Naval Air 
Station Jacksonville, FL; Naval Station Norfolk, VA; Randolph Air Force 
Base San Antonio, TX; United States Marine Corps Air Station Miramar, 
CA; and Army Fort Sill, OK. In addition, VA conducted pilots with the 
Guard and Reserve components to include Fort Hood, TX, for the Army 
Reserve and Camp Shelby, MS, for the Army National Guard.
    An interagency evaluation team consisting of representatives from 
DoD, the Military Services, VA, DOL, and the Small Business 
Administration (SBA) were present at pilot sites to observe and provide 
constructive feedback that will be used to improve the VA TAP session. 
Feedback indicated that VA met its stated learning objectives for each 
training module, but several comments indicated that facilitators need 
to have an increased awareness to integrate their portion of TAP into 
the overall GPS curriculum to ensure a well-coordinated delivery and to 
minimize duplication of effort.
    In addition to feedback from the evaluation teams, an interagency 
project team developed a survey to track attendance and customer 
feedback from both the pilots and the full TAP program deployment. This 
tool provides VA with valuable information, including participation 
rates, customer satisfaction data, and qualitative feedback, which will 
help VA to better meet the needs of transitioning Servicemembers. VA, 
DoD, and our other agencies are reviewing data from the survey at the 
pilot locations to continue making improvements.
Timeline
    Implementation of the VOW to Hire Heroes Act and VEI Task Force 
requirements will occur using a sequential, phased-in approach. Phase 1 
will implement the VOW Act by November 21, 2012; Phase 2 will implement 
Transition GPS, and Phase 3 will implement other VEI Task Force 
recommendations. VA is committed to taking action on overarching 
implementation strategies and will complete key operational and 
programmatic goals through multi-agency collaborative efforts with DoD, 
Military Services, DOL, ED, and SBA.
    During Phase 1, which focuses on implementation of the VOW to Hire 
Heroes Act, VA will expand the previously optional four-hour VA TAP 
briefing to a mandatory VA benefits briefing with a ratio of 50 
attendees to one instructor. VA will use feedback from pilot sites and 
interagency evaluation teams to improve our training. During Phase 1, 
VA will work with DoD to enhance its online version of TAP. These web-
based formats will allow Veterans as well as Servicemembers in remote 
locations to go back and review the latest information concerning VA 
benefits and services.
    During Phase 2, which centers on implementing the Transition GPS, 
VA will develop the curriculum for the optional technical training 
track, and will assist DoD and SBA with curriculum development for the 
education and entrepreneurship tracks. VA will provide support to our 
agency partners with the implementation of the full VEI Task Force 
recommended curriculum. In addition, VA will continue to assess and 
improve the delivery of TAP information deployed in Phase 1.
    Phase 3 will institutionalize VEI Task Force components of the 
redesigned TAP. VA will assist DoD and the Military Services in 
implementing other VEI Task Force recommendations, including a capstone 
event prior to a Servicemember's transition to verify and enhance 
transition services. VA will also assist with the implementation of a 
military life cycle transition model to incorporate preparation for 
Servicemembers' career transition throughout their military service.
Conclusion
    VA is proud of our continuing role in the transition of 
Servicemembers from military to civilian life and seeks to continually 
improve the quality and breadth of our outreach efforts to active duty, 
Reserve, and National Guard members. VA has aggressively piloted its 
revised benefit briefings, developed implementation plans for the newly 
designed TAP, and is excited about the opportunities it provides to our 
Servicemembers and their families. VA fully supports the Administration 
and Congressional efforts to ensure that transitioning Servicemembers 
are ready for employment or education upon separation.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Subcommittee may have.

                                 <F-dash>
                Prepared Statement of Mr. John K. Moran
    Good Morning Chairman Stutzman, Ranking Member Braley and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing on ``Examining the Re-
Design of the Transition Assistance Program (TAP)''. With the drawdown 
outlined in the recently released Defense Strategic Review, the number 
of returning and transitioning Service Members is expected to increase 
over the next five years by an estimated 200,000 per year. The TAP 
redesign is an important part of the Administration's efforts to ensure 
that America fulfills its obligations to these Service Members, 
Veterans, and their families.
    Every day, we are reminded of the tremendous sacrifices made by the 
Members of the U.S. Armed Services, National Guard and Reserve. They 
leave their friends, families and careers behind to defend our freedoms 
around the world. These brave men and women deserve a hero's welcome 
and a chance to utilize their unique skills to help rebuild our economy 
when they return home. Yet, all too often, those who have given so much 
for America face a difficult transition back to civilian life and 
struggle to find a job worthy of their talents. President Obama and 
Secretary Solis are committed to serving our military families as well 
as they've served us by providing them with the services and support 
they need and deserve to successfully transition to the civilian 
workforce and find and secure meaningful careers.
    My name is John Moran, and as Deputy Assistant Secretary for 
Veterans Employment and Training Service (VETS) at the Department of 
Labor, I am proud of the work the Department is doing to support our 
Service Members, Veterans, and spouses. We provide these American 
heroes with the critical resources and expertise they need and deserve 
to help prepare them to obtain meaningful careers, maximize their 
employment opportunities, and protect their employment rights.
Prepare, Provide and Protect:
    In all our efforts, the Department is guided by the three P's: 
Prepare, Provide and Protect. We Prepare our Veterans, separating 
Service Members and their spouses to transition from the military to 
the civilian workforce through a variety of programs, the most 
important and extensive of which is the Transition Assistance Program, 
which I will discuss in more detail later in my testimony.
    We Provide them with the critical resources, expertise, and 
training to assist them in locating and obtaining meaningful careers. 
We do so through services provided at the more than 2,800 American Job 
Centers (AJC) (formerly known as Career One-Stops) that serve as the 
cornerstone for the Nation's workforce investment system, as well as at 
other locations. The Department ensures that Veterans, eligible 
spouses, and transitioning Service Members receive priority of service 
at the AJCs with respect to all Department of Labor (DOL)-funded 
employment and training programs.
    As you know, the Department has decades of experience working with 
states, local areas, Veteran Service Organizations (VSOs), non-profits, 
employers, and many others to advance the recruitment, training and 
employment of Veterans and transitioning Service Members. Through the 
Jobs for Veterans State Grants (JVSG) program, for example, the 
Department provides grants to states to support Disabled Veterans' 
Outreach Program (DVOP) and Local Veterans' Employment Representative 
(LVER) staff that provide outreach services and intensive employment 
assistance to meet the needs of eligible Veterans and transitioning 
Service Members.
    We Protect the employment rights of the men and women that serve 
this Nation and ensure they are provided every opportunity they have 
earned in the workplace. Among the important worker protection laws 
enforced by DOL is the Uniformed Services Employment and Reemployment 
Rights Act of 1994 (USERRA), which prohibits discrimination against 
Members of the Armed Services, Guard and Reserve because of their past, 
present, or future military obligations and provides for prompt 
reemployment and full restoration of benefits upon completion of 
protected service.
    The Department also works diligently to investigate and resolve 
Veterans' Employment Opportunities Act (VEOA) complaints and to ensure 
that Veterans receive their due preference in Federal employment. In 
addition, we enforce the Vietnam Era Veterans Readjustment Assistance 
Act of 1974 (VEVRAA), which prohibits Federal contractors and 
subcontractors from discriminating against protected Veterans and 
transitioning Service Members, and requires them to ensure equal 
opportunity in all aspects of employment.
    These three P's guide all our efforts, day in and day out, to serve 
these brave men and women with a broad array of coordinated programs 
and initiatives that lead to the Secretary's vision of ``Good Jobs for 
Everyone.''
Transition Assistance Program (TAP) Employment Workshops:
    The U.S. military transitions approximately 160,000 active duty 
Service Members and demobilizes 95,000 Reservists and National Guard 
members annually. Given these figures, it is imperative that we Prepare 
our men and women to reintegrate into the civilian workforce by 
providing transition assistance and employment services. This is 
especially true now that the Iraq war has officially ended and we are 
drawing down our presence in Afghanistan which we expect to result in 
an increased number of troops transitioning out of the military in the 
coming months.
    As I mentioned earlier in my testimony, an important program, 
designed to prepare separating Service Members and their spouses' for 
transition from the military to civilian employment, is TAP, an 
interagency effort led by the Departments of Labor, Veterans Affairs 
(VA), Defense (DoD), and Homeland Security (DHS). Through TAP, the DOL 
brings to bear its extensive expertise in employment services to 
provide a comprehensive three-day TAP Employment Workshop, now known as 
the DOL Employment Workshop, at U.S. military installations around the 
world.
    The Department began providing the DOL Employment Workshops over 20 
years ago when Congress passed the National Defense Authorization Act 
for Fiscal Year 1991 (P.L. 101-510). Since then, the number of 
workshops, participants and locations has continued to increase. For 
instance, in 2003 we expanded TAP to overseas military installations, 
pursuant to section 309 of the Veterans Benefits Act of 2003. Two years 
later, in FY 2005, DOL began offering Employment Workshops to returning 
members of the Reserve and National Guard and committed to providing 
requested modules at the 30, 60, and 90-day Yellow Ribbon Reintegration 
programs.
    To date, the Department has provided training and services through 
Employment Workshops to over 2.5 million separating or retiring Service 
Members and their spouses at 272 locations worldwide. Last year alone, 
DOL provided more than 4,200 Employment Workshops to nearly 145,000 
participants at domestic and overseas locations.
    Since its inception, the DOL Employment Workshop has been a 
valuable tool for Service Members transitioning into the civilian 
workforce. However, while the needs of transitioning Service Members 
have changed over the past 20 years, the Transition Assistance Program 
had remained largely unchanged.
    Last year, the Department initiated a major effort aimed at 
revamping and updating the Employment Workshop curriculum to bring it 
up to date and current with emerging best practices in career 
development and adult learning. DOL worked with its partner agencies to 
significantly redesign the DOL Employment Workshop to make it more 
engaging and relevant in light of the unique challenges facing 
returning Service Members, as they look to transition into meaningful 
civilian careers during the current economic recession. Aside from a 
new curriculum, delivery methods, and student hand-out materials, the 
redesign of the Employment Workshop also includes tools to help Service 
Members match their military experience to jobs that require similar 
training, experience, and skills.
VEI Task Force for a Career-Ready Military and the VOW to Hire Heroes 
        Act:
    Around the same time that DOL began the redesign effort, the 
President created a Veterans Employment Initiative (VEI) Task Force for 
a Career-Ready Military to develop proposals to maximize the career 
readiness of all Service Members. This effort was aimed at building on 
the existing TAP program to give separating Service Members a clear 
path: to civilian employment; to success in an academic or technical 
training program; or to the successful start-up of an independent 
business entity or non-profit organization. The Task Force was created 
in August of 2011, and included representatives from the Departments of 
Defense Veterans Affairs, Labor, Education, the Small Business 
Administration (SBA), and the Office of Personnel Management (OPM). 
Together, we worked to develop a new transition program to meet the 
President's mandate for a career ready military.
    The Task Force also worked to incorporate the requirements of the 
VOW to Hire Heroes Act of 2011 (VOW), which the President signed into 
law in November 2011. The VOW Act mandates several reforms to the 
interagency TAP, such as mandatory participation, with some exceptions 
to be determined by DoD and DHS, in consultation with DOL and VA. The 
VOW Act also requires that by November 21, 2013, DOL use contract 
instructors or facilitators in delivering its Employment Workshop.
DOL Employment Workshop Redesign--Phase I:
    The Department worked with our partner agencies on the VEI Task 
Force throughout the redesign process. In August 2011 we initiated the 
process by awarding a contract to redesign the DOL Employment Workshop 
curriculum. The first redesign of the employment workshop curriculum 
was completed in November 2011, with the publication of a TAP workshop 
participant manual, entitled ``It's Your Future! DOL Employment 
Workshop: Participant Guide'' and companion ``Leader Guide'' for 
workshop facilitators. In addition, facilitators were provided with CDs 
containing various videos and PowerPoint slides that could be used 
during their presentations. The new TAP curriculum was divided into 17 
individual modules, 12 of which were intended to be taught in the 
classroom over three days. There are also three web-based modules and 
one to be included as a reference to be used after the workshop.
    Prototype workshops using the new curriculum were then tested at 
four active duty military installations including, Andrews Air Force 
Base, Naval Station Norfolk, Marine Corp Base Camp Lejune, and the Army 
base at Fort Bragg. DOL then revised the curriculum based on 
observations and feedback from the four pilot sites.
DOL Employment Workshop Redesign--Phase II:
    Beginning in December 2011, the current TAP workshop instructors, 
comprised of DVOPS and LVERs, were trained on how to facilitate the 
redesigned curriculum. In February 2012, this cadre of instructors 
began to deliver the workshop under a 3-month pilot program at 11 
active duty installations across the services, including the following 
sites: Army (Ft. Bragg, Ft. Knox, Ft. Belvoir and Ft. Drum), Navy (NAS 
Jacksonville and Naval Base San Diego), Air Force (Travis AFB and JB 
McGuire), Marine Corps (MCB Quantico and MCAS Miramar), and Coast Guard 
(Cape May).
    Beginning in February of 2012, the Department conducted a third-
party formal evaluation of the workshop's effectiveness. In this 
evaluation, the aim was to determine if the redesigned TAP curriculum 
provided exiting Service Members with the skills, tools, and resources 
needed to transition back into civilian employment. Additionally, this 
evaluation effort was designed to capture direct feedback from TAP 
facilitators and workshop participants to assess levels of 
satisfaction, explore workshop effectiveness for participants, and 
identify potential areas in which the new curriculum could be revised 
and enhanced.
    The main study findings and recommendations were based on over 
5,200 comments derived from: (1) observational visits to 11 military 
bases piloting the new TAP curriculum; (2) in-person interviews with 
facilitators involved in conducting the pilot-tests of the new 
curriculum at these bases; (3) a survey of participants attending 
workshops at the pilot sites; and (4) a survey of facilitators 
conducting the workshops at the 11 military bases. Based on the 
preliminary results of this evaluation, along with feedback from the 
piloting sites and other commentators, a team of Subject Matter Experts 
began revising the curriculum in April of 2012.
    Proposed revisions included:

    <bullet>  Reduce the size of the participant manual.
    <bullet>  Improve content by correcting editing mistakes, 
inaccuracies, outdated material, and by ensuring high interactivity is 
built into the curriculum.
    <bullet>  Develop remedial/retraining method to current cadre of 
TAP facilitators on newly designed curriculum.
    <bullet>  Rollout new revised DOL Employment Workshop by July 2, 
2012 in conjunction with DoD Transition Goals Plans Success Pilots.
DOL Employment Workshop Redesign--Phase III:
    In early May 2012, the revised DOL Employment Workshop curriculum 
was completed and sent out for review and comment to representatives 
from over 100 different organizations including Federal and state 
governmental entities, Members of Congress and their staff, Veterans 
Service Organizations (VSOs), experts in adult learning and training 
techniques, Veterans, transitioning Service Members, State Workforce 
Agencies, Army, Air Force (USAF), Air Force Reserve (AFR), Air Force 
National Guard (AFNG), Coast Guard (USCG), Navy (USN), Marine Corps 
(USMC) and others.
    Based on the feedback received from the pilot, along with the 
formal evaluation report, DOL fine-tuned the Employment Workshop 
curriculum. In June 2012, the revised curriculum and training were 
approved.
Redesigned 3-Day DOL Employment Workshop:
    The redesigned DOL Employment Workshop focuses on experiential 
learning and best practices, with an increased emphasis on networking 
and communicating the Veteran's skill value to the employer. This new 
three-day curriculum relies heavily on interaction and adult learning 
principles. It is specifically geared toward the mechanics of getting a 
good job, exploring career interests, searching the labor market, 
building resumes, preparing for interviews, and negotiating a job 
offer.
    On Day 1, for example, participants learn how to develop a ``Change 
Management Plan'' to identify an overall strategy for transitioning 
into the workforce, explore new careers that complement the skills and 
expertise learned through their military service, develop a master job 
application from which targeted resumes can be built, and learn how to 
research the job market using the latest search tools. On Day 2 
participants learn how to analyze the job market, understand the 
difference between applications and resumes, how to use social media in 
job searches and networking, and practice targeted resume development. 
During the final session on Day 3, participants learn how searching for 
a Federal job differs from the private sector, and they hone their 
interview skills through a mock interview exercise.
Transition Goals, Plan, Success (GPS) Program:
    The Department has collaborated with VEI Task Force members to 
undertake an additional pilot of the DOL Employment Workshop, along 
with the other components of the new redesigned TAP, collectively known 
as Transition GPS at seven military instillations. This new model will 
meet the President's call for a career-ready military, and is designed 
to be implemented over the entire course of a Service Member's military 
career.
    One aspect of Transition GPS consists of a five-day series of 
training sessions and workshops that make up the core curriculum 
Service Members will be required to attend. During these five days, DoD 
will provide an overview of the program and available services, conduct 
a financial planning seminar and lead Service Members through a 
Military Occupational Code Crosswalk to translate their military 
skills, training, and experience into civilian occupations, 
credentials, and employment. The VA will conduct a workshop on 
available Veterans' benefits and services, and DOL will deliver the 
redesigned Employment Workshop previously described above. In addition, 
transitioning Service Members will have the option of participating in 
tailored tracks in addition to the Core GPS Curriculum including: (1) 
an education track; (2) a technical and skills training track; and (3) 
an entrepreneurship track.
    The Transition GPS pilot was primarily focused on how well each 
agency's component pieces complement each other in order to ensure a 
logical flow of information and alleviate duplication. Feedback has 
been positive and indicates that the new DOL Employment Workshop is 
meeting the needs of transitioning Service Members and their spouses. 
Therefore, DOL does not anticipate any significant revisions to the 
curriculum, and we are moving forward with our phased rollout plan.
    As mandated by the VOW Act, DOL awarded a contract in compliance 
with the 100 percent contractor facilitation requirement. We are now 
ahead of schedule to transition to full contract facilitation and 
implementation of the new DOL Employment Workshop curriculum at all 
military installations worldwide by January 2013.
    The result has been a well-received, well-tested curriculum that 
was developed to be responsive to customer input, and inclusive of 
training best practices for adult learners. Preparing separating 
Service Members and their spouses for the transition to the civilian 
job market is central to our mission and we take that mission 
seriously.
Conclusion
    In the next five years, one million Service Members men and women 
will be transitioning from active duty to civilian life. We owe them 
the best services and benefits our Nation can provide. The Department, 
along with the rest of the Administration, is firmly committed to 
fulfilling that sacred obligation. We strive daily to do so through 
programs and services designed to Prepare, Provide and Protect our 
Veterans, transitioning Service Members and their spouses.
    Mr. Chairman, Ranking Member Braley, Members of the Subcommittee, 
this concludes my statement. Thank you again for the opportunity to 
testify today. I would be pleased to answer any questions you may have.

ATTACHMENT 1

          DOL TAP EMPLOYMENT WORKSHOP (DOLEW) REDESIGN TIMELINE
------------------------------------------------------------------------
                        Action                                Date:
------------------------------------------------------------------------
Redesign TAP contract Awarded                                    8/2011
------------------------------------------------------------------------
New DOLEW curriculum developed                                  10/2011
------------------------------------------------------------------------
Began new DOLEW tested at 4 military installations              10/2011
------------------------------------------------------------------------
DVOP/LVER facilitators were trained on new                      12/2011
 curriculum
------------------------------------------------------------------------
3-month Pilot program began at 11 sites                          2/2012
------------------------------------------------------------------------
DOLEW curriculum & training revisions                            5/2012
------------------------------------------------------------------------
DOLEW curriculum & training finalized and approved               6/2012
------------------------------------------------------------------------
New DOLEW curriculum & training rollout                          7/2012
------------------------------------------------------------------------
DOLEW Facilitation Contract Awarded                              8/2012
------------------------------------------------------------------------
Contractor Phase-In Period to Recruit, Train and             10-12/2012
 obtain SOFA Agreements for OCONUS Sites
------------------------------------------------------------------------
100% Contract Facilitation at all DOLEW sites                    1/2013
------------------------------------------------------------------------


                                 <F-dash>
                Prepared Statement of Mr. Rhett Jeppson
    Chairman Marlin A. Stutzman (IN), Ranking Member Bruce L. Braley 
(IA) and members of the Subcommittee--thank you for inviting me to 
testify.
    My name is Rhett Jeppson. I currently serve as the Associate 
Administrator for Veterans Small Business Development at the U.S. Small 
Business Administration and am also a veteran. I am a Lieutenant 
Colonel in the United States Marines Corps Reserve, with recent service 
in U.S. European Command, U.S. Forces Afghanistan, and U.S. Special 
Operations. After my first tour in the Marine Corps, I left the service 
to operate a small family business while my father underwent a bone 
marrow transplant. Additionally, in the late nineties I served as the 
Director of State Purchasing in Florida.
    Two of America's greatest assets are the service of our returning 
veterans and the economic dynamism of our small businesses. Our 
Nation's 28 million small businesses employ half of the private sector 
workforce and are responsible for creating 2 out of 3 net new private 
sector jobs across the country. \1\
---------------------------------------------------------------------------
    \1\ Headd, Brian. ``An Analysis of Small Business and Jobs,'' U.S. 
Small Business Administration, March 2010.
---------------------------------------------------------------------------
    As small business owners, veterans continue to serve our country 
and create jobs in our communities. According to the most recent U.S. 
Census data, nearly 1 in 10 small businesses are veteran-owned. These 
businesses generate about $1.2 trillion in receipts and employ nearly 
5.8 million Americans. \2\
---------------------------------------------------------------------------
    \2\ ``Survey of Business Owners - Veteran-Owned Firms, 2007,'' U.S. 
Census Bureau, Department of Commerce, May 2011.
---------------------------------------------------------------------------
    Research also demonstrates that veterans over index in 
entrepreneurship. In the private sector workforce, veterans are at 
least 45 percent more likely than those with no active-duty military 
experience to be self-employed. \3\
---------------------------------------------------------------------------
    \3\ ``Factors Affecting Entrepreneurship among Veterans,'' Office 
of Advocacy, U.S. Small Business Administration, March 2011.
---------------------------------------------------------------------------
    Today, there are over 200,000 servicemembers each year 
transitioning from active service. Boots to Business, the 
entrepreneurial track of the new Transition Assistance Program (TAP), 
is focused on providing these servicemembers with the training, tools 
and resources they need to make the transition from military 
servicemembers to successful business leaders.
SBA's Role Supporting Veteran-Owned Businesses
    At SBA we are focused on making sure our Nation's veterans have the 
capital, the counseling and the access to contracting opportunities 
they need to start, build and grow successful business. This is what we 
refer to as our 3 Cs: capital, counseling, and contracting.
    The first `C' is capital. In FY 2011, SBA supported more than 4,300 
loans to veteran business owners, totaling more than $1.5 billion.
    In addition, our Patriot Express Loan program has supported more 
than $460 million in lending to veteran entrepreneurs and small 
business owners over the last three years. The program, which has been 
extended through 2013, offers low-interest loans to members of the 
veteran and military community.
    Our second `C' is counseling. Our data show that small business 
owners who have a long-term counselor are more likely to hire, grow, 
and increase revenues.
    Not many people know just how extensive SBA's counseling network 
is. We call it the SBA bone structure. The backbone is our SBA 
employees on the ground in 68 field offices around the country. If the 
field office is our bone structure, our muscle is our Resource Partner 
network comprised of over 900 Small Business Development Centers, most 
at local colleges and universities, more than 100 Women's Business 
Centers, our Veteran Business Outreach Centers, and more than 370 
chapters of a mentoring program called SCORE.
    In sum, there are about 14,000 SBA-affiliated counselors who serve 
about 1 million people each year, and the best part is it's free for 
participants. We estimate that there is an SBA counselor within about 
an hour of every small business in America.
    Last year our Small Business Development Centers, Women's 
Development Centers and SCORE network trained more than 68,000 veteran 
entrepreneurs. And, an additional 86,000 veterans received training and 
business counseling through our Veteran Business Outreach Centers last 
year.
    The third `C' is contracting. At SBA, we work across Federal 
agencies to ensure that the statutory goal of 23 percent of Federal 
contracts are awarded to small businesses. This is a win-win. Contracts 
are the oxygen that small businesses need to build their top line. At 
the same time, the government gets to work with some of the most 
innovative, nimble and responsive companies--often with a direct line 
to the CEO.
    The Service-Disabled Veteran-Owned Small Business Concern 
Procurement Program allows Federal agencies to set acquisitions aside 
for exclusive competition among service disabled veteran-owned small 
business concerns. SBA works with service disabled veteran-owned small 
businesses to build awareness of Federal contracting opportunities and 
to ensure they have the resources they need to bid for Federal 
contracts.
    Last year we helped service disabled veteran-owned small businesses 
access more than $11.2 billion in Federal prime contracting dollars. 
This is the fifth consecutive year that we have increased the amount of 
Federal contracting going to these businesses.
Operation Boots to Business: From Service to Startup
    In the fall of 2010 and 2011, President Obama called for the 
creation of two joint task forces: the Department of Defense-Department 
of Veterans Affairs (DoD-VA) Veterans Employment Initiative Task Force 
and the Interagency Task Force on Veterans Small Business Development 
led by SBA. The goals of the task forces are to:

    1)  develop proposals to maximize the career readiness of all 
servicemembers; and
    2)  create proposals to better support veteran-owned small business 
owners.

    Both task forces identified the need to create a nationwide 
entrepreneurship training program for transitioning servicemembers. As 
an outcome of these task forces, SBA is working with DoD and VA to 
include entrepreneurship training as a part of the overall, service-
wide changes to the Transition Assistance Program (TAP).
    The overall goal of the ``new TAP'' is to strengthen the transition 
of all of our servicemembers from military to civilian life and to 
prepare them for success in the next phase of their life. In the ``new 
TAP,'' each servicemember will receive ``core'' education in post-
service veterans' benefits. In addition, the goal is for each veteran 
to choose from three ``optional'' tracks for further, targeted 
training: 1) Higher Education; 2) Technical Training; and 3) 
Entrepreneurship. When fully implemented, the SBA and its partner 
network would deliver the entrepreneurship track to those transitioning 
servicemembers who opt-in to receive entrepreneurship training.
    The Operation Boots to Business program will build on SBA's role as 
a national leader in entrepreneurship training. SBA will leverage its 
ongoing collaboration with Syracuse University's Institute for Veterans 
and Military Families (IVMF) to provide comprehensive training 
materials specifically geared toward transitioning servicemembers.
    Through the Boots to Business initiative, SBA Resource Partners 
will build on these efforts by deploying this expertise at military 
bases around the country to collaboratively deliver face-to-face 
introductory entrepreneurship training as a network. Our Resource 
Partners, not a group of contractors, will also introduce transitioning 
servicemembers to the essentials of entrepreneurship and lifetime 
business support available to them in our Resource Partner network.
    A transitioning servicemember upon completion of the introductory 
course may enroll in an intensive, 8-week online business planning 
training course delivered by Syracuse and other affiliated University 
partners. As always, counselors and mentors from SBA's Resource Partner 
network will be there to work with servicemembers throughout the eight-
week online course, and thereafter as these servicemembers start their 
businesses.
    There is great work that is already going on around the country by 
our Resource Partners to provide transitioning servicemembers and 
veterans with entrepreneurship training. At the same time, SBA, DoD and 
the Services realize the need to have a standardized curriculum to 
ensure that every servicemember has the opportunity to receive 
entrepreneurship training. The national curriculum, enhanced by the 
tailored approach and expertise of our Resource Partner network, helps 
us ensure that every transitioning servicemember has this opportunity. 
This national, Resource Partner-delivered model is dependent on FY2013 
funding and statutory authority to help support the training that will 
occur on bases across the country.
    The national initiative consists of three progressive phases that 
will deliver exposure/introduction, feasibility assessment, and in-
depth training for servicemembers interested in business ownership:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Phase 1: Short Introduction on Entrepreneurship (< 10 minute video)
    Phase 1 of the program will introduce all 200,000 plus 
transitioning servicemembers to entrepreneurship as a career path. The 
introductory video is packaged and delivered for online streaming or 
DVD distribution. Participation is mandatory as part of the TAP 
curriculum.
Phase 2: Feasibility Analysis Instruction (2 days)
    Phase 2 guides participants through a 2-day classroom instruction 
focused on creating a feasibility analysis for a business plan. This 
training will be delivered face-to-face by our Resource Partners on-
base. The Feasibility Analysis Deliverable will represent the outcome 
of the 2-day intensive seminar. The document will serve as the basis 
for future business planning efforts, and is designed to assist the 
servicemember in developing an `actionable' plan for subsequent effort 
focused on launching a new venture. A pre-formatted template will be 
used to facilitate the completion of the analysis during the 2-day 
training and participants will `walk away' from the training with a 
completed feasibility study of their own business concept.
Phase 3: In-depth Online Entrepreneurship Course (8-week ONLINE course)
    Phase 3 offers participants an in-depth, 8-week online training 
program to further explore the fundamentals of small business 
ownership. This online course will be offered by Syracuse and its 
affiliated University instructors/partners. Curriculum topics include 
understanding customers, marketing, accounting and finance, and 
operations. This online course will be offered on a rolling basis, to 
be completed within 60 days from the start date. Participation is 
optional, but participants must sign up in advance.
Getting Started: Pilot with the USMC
    To test the initiative prior to national rollout, in June 2012 SBA 
partnered with the U.S. Marine Corps to deliver a streamlined version 
of the Boots to Business entrepreneurship training to approximately 
20,000 transitioning Marines in four pilot locations: Quantico (VA), 
Cherry Point (NC), Camp Pendleton (CA), and Twenty-Nine Palms (CA).
    The pilot with the Marines consists of three progressive phases to 
deliver exposure, introduction, and in-depth training for 
servicemembers interested in business ownership. The pilot does not 
include the 2-day feasibility assessment but uses a 90 minute course at 
the pilot locations due to time and cost constraints.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Phase 1: Short Introduction on Entrepreneurship (10 minute video)
    <bullet>  Estimated Number of Participants: ALL 20,000 
transitioning Marines at the four bases participating in the pilot.
Phase 2 (Initial USMC pilot only): In-Person Classroom Training Course 
        on Entrepreneurship (90-minute training)
    <bullet>  Estimated Number of Participants: 4,000 Marines, 
representing 20% of population at the four bases in the pilot.
    <bullet>  Delivery: Face-to-face, by SBA Resource Partners on-base.
Phase 3: In-depth Online Entrepreneurship Course (8-week course)
    <bullet>  Estimated Number of Participants: 1,600 Marines, 
representing 8% of population at 4 pilot sites; 40% of initial 
participation due to attrition.
    <bullet>  Registration Information: Registration information for 
the 8-week course is provided in the 90-minute curriculum slide deck so 
that participants can learn about their opportunity to sign up for the 
8-week online course. Additional information is also provided in the 
90-minute course's teaching notes. Interested Marines can register for 
the 8-week online course by going to http://boots2business.org and 
hitting the `register' tab, filling out the registration form, and 
entering the following code: USMC2012. The original version of the 8-
week online course will be managed by professors in Syracuse 
University's network. The SBA is also exploring self-paced curriculums 
for future uses.
    <bullet>  Delivery: By Syracuse and its affiliated University 
instructors/partners
Supplemental Demonstration of 2-Day Curriculum at VA Conference on June 
        24-25, 2012
    <bullet>  Overview: SBA partnered with Department of Defense (DoD), 
Veterans Affairs (VA), Syracuse, and SBA Resource Partners to present a 
2-day feasibility analysis curriculum at the National Veterans 
Procurement Conference June 24-25th. The purpose was to demonstrate the 
additional phase of the Program which will be integrated into the 
nationwide rollout but which is not part of the streamlined Marine 
Pilot.
Estimated Number of Participants: 50 servicemembers, representing all 
        branches of the military.
    In August 2012 three Navy locations were added to the pilot: 
Anacostia-Bolling, Washington, DC, Bethesda, MD and King's Bay, GA. In 
October 2012, the U.S. Army plans to host a pilot in Ft. Sill, OK.
    Following our assessment of the pilot we plan to roll the program 
out nationally to all branches of the military in FY 2013 subject to 
funding.
    We know that our Nation's veterans helped reshape the American 
economy following World War II. They helped to build one of the longest 
periods of economic growth in our country's history.
    And, we know they can do it again if they are encouraged and 
supported with the right tools and the right opportunities. That's what 
Boots to Business is all about.
    And, it's why we are committed to ensuring that these amazing men 
and women have the access and opportunity they need to fully realize 
their potential as entrepreneurs and small business owners.
    Thank you for your time today and for allowing me to appear before 
this Committee.

                                 <F-dash>
                 Prepared Statement of Dr. Susan Kelly
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, thank you for the opportunity to discuss the views of the 
Department of Defense (DoD) on the redesign of the Transition 
Assistance Program (TAP). TAP, the cornerstone of the Department's 
transition efforts, is a collaborative partnership between DoD, the 
Department of Labor (DOL), and the Department of Veterans Affairs (VA). 
It is the primary platform used to deliver an extensive array of 
services and benefits information to all eligible separating, retiring 
and demobilizing/deactivating Service members.
    Our overall goal at the Department of Defense is to ensure those 
who are leaving Service are prepared for their next step--whether that 
step is pursuing additional education, finding a job in the public or 
private sector, or starting their own business. Particularly in this 
economic climate, we are concerned about the number of unemployed 
veterans, especially our 18-24 year old population. Finding ways to 
help veterans to successfully transition to civilian life is a priority 
for the President and the Department.
Redesigned TAP
    Under the leadership of President Obama, and with strong bipartisan 
support in Congress, we have fundamentally redesigned TAP. This 
redesign effort involves a strong interagency partnership that will 
make the needs of today's Service members and their families the top 
priority.
    In his ``Call to Action'' on August 5, 2011, the President mandated 
the creation of a joint DoD and VA task force to work with the White 
House economic and domestic policy staff and other agencies to develop 
proposals to maximize the career readiness of all Service members. As a 
result, the DoD/VA Veterans Employment Initiative (VEI) Task Force was 
established in September 2011, with representatives from the 
Departments of Labor and Education, the Small Business Administration, 
the Office of Personnel Management, and the President's economic and 
domestic policy teams.
    The President also emphasized the need to develop reforms to ensure 
that every Service member receives training, education, and credentials 
needed to transition to the civilian workforce, pursue higher 
education, and be ``career ready'' upon separation from the military. 
In the TAP redesign, a new career readiness standard for Service 
members seeking employment requires a quality resume (public or private 
sector), professional personal references and/or a a job application or 
an acceptance letter from a potential employer. Service members 
pursuing degrees or career technical training will meet the career 
readiness standard for education or career technical training by 
completing an application package for submission to an education or 
training institution, providing confirmed appointments with an 
institution's academic counselor and connection with student veteran 
organizations, or an acceptance letter to an academic or training 
institution. Student veteran organizations benefit veterans by 
providing an opportunity to interact socially with other student 
veterans who have similar experiences and challenges. Other examples of 
career readiness standards include registration in eBenefits, a 
completed Individual Transition Plan (ITP), and a 12 month post 
military budget reflecting personal goals. These are several examples 
of our new ``career readiness standards'' Service members will meet 
before they are separated from military service.
    In July 2012, President Obama announced the launch of the 
``Transition GPS (Goals, Plans, Success)'', the culmination of the TAP 
redesign efforts that will establish the career readiness standards, 
extend the transition preparation through the entire span of a Service 
member's career, and provide counseling to facilitate the development 
of an individual transition plan. The Department anticipates 
approximately 307,000 Service members will separate annually over the 
next 4 years. Our goal is to prepare and equip them to be career ready 
and apply their valuable military experience however and wherever they 
choose in the civilian workforce.
    Transition GPS improvements recognize the Military Services' 
cultural differences and the unique circumstance of Reservists and 
National Guard members. The Services have the flexibility to modify the 
program to reflect unique Service culture while maintaining the 
program's standardized curriculum and mandatory learning objectives. 
This flexibility provides Services opportunity to adjust for their 
Service members' individual transition goals and Service mission 
requirements. The end state for each Service member is to meet the 
Career Readiness Standards for the career plan they have chosen, 
regardless of branch of Service.
    The building blocks of the new Transition GPS consist of Pre-
separation counseling, CORE Curriculum, optional tracks and CAPSTONE.

    <bullet>  Pre-separation Assessment and Counseling: Each 
transitioning Service member must go through mandatory pre-separation 
counseling to introduce them to the full range of programs and services 
available to them during their transition. While some pre-separation 
needs are common, other needs are identified for individual Service 
members resulting in immediate referral to installation resources to 
address such needs. The needs and referrals are documented in an 
official form that becomes part of the Service member's permanent file.
    <bullet>  The CORE Curriculum, includes the following:
    b Financial Planning: A workshop on financial planning provides 
Service members with the information and tools needed to identify 
financial responsibilities, obligations, and goals after separation 
from the military. Upon completing the financial planning seminar, 
Service members will be prepared to build an integrated 12 month budget 
that reflects post-military employment, education, or training goals, 
ultimately helping to ensure their personal and family security. 
Instructors and financial planning staff will be available for follow-
up counseling as requested by the Service member or as identified by 
the subject matter expert.

    <bullet>  Military Occupational Code (MOC) Crosswalk: The MOC 
Crosswalk is a module on translating military skills, training, and 
experience into credentialing appropriate for civilian jobs. Upon 
completing this module, Service members will have a file recording 
their military career experience and skills; translation of their 
military occupation experience to civilian sector skills; and 
identification of gaps in their training and/or experience that need to 
be filled to meet their personal goals. Members will be able to develop 
a clear line of sight between their military skills and training and 
career fields of their choice. This will permit a targeted job search 
and self-development by each Service member. Instructors and education 
and employment experts are available for further personal assistance.
    <bullet>  VA Benefits Briefings: Workshops on VA benefits that 
inform transitioning Service members of their Veterans benefits 
options. The VA modules include the VA Education Briefing (Post 9/11 
and Montgomery GI Bills, Pell Grants, and other Federal student aid), 
the VA Benefits briefing including the Disabled Transition Assistance 
Program (DTAP) information and information about Veterans health, 
education, home loan guarantee, insurance, and other benefits for which 
they may be eligible. Service members will have face-to-face access to 
VA staff, facilitating personalized attention and service.
    <bullet>  Individual Transition Plan: Each Service member is 
required to develop an ITP which, step- by-step, helps the Service 
member determine the actions they must take to achieve their career 
goals. Each plan will be tailored, and the documents required by the 
plan reviewed by the Commanders or their appointed representatives. 
Service members will deliver products to serve as evidence that they 
are indeed, prepared for their transition and postured to meet their 
post-separation goals.
    <bullet>  Optional Tracks consisting of:

    b Education Track: Service members pursuing college education will 
receive guidance to prepare for the college application process. The 
Education Track addresses such topics as identifying one's educational 
goals, education funding, and researching and comparing institutions. 
Upon completion of the education track, Service members will be 
prepared to submit an application to an academic institution, schedule 
a session with a counselor from the institution, and connect with a 
Student Veterans Organization on campus. Service members will be able 
to meet with installation education counselors for individualized 
preparation, as desired.
    b Career Technical Training Track: Service members pursuing further 
technical training and job-ready skills will receive individualized 
guidance and help in selecting a training institute/college/program and 
technical fields. The Technical Training Track addresses such topics as 
selection of a reputable career and technical training program or 
college, the application process to a school from start to finish, and 
how to use certification finder Web tools and other Internet resources 
that identify licensed occupations, and a military occupational code 
translator. Similar to the Education Track, upon completing the 
Technical Training track, Service members will be prepared to submit an 
application to a technical training institute/college/program, schedule 
a session with a program counselor, and connect with a veteran student 
organization at the facility or in the vicinity, as available. 
Technical training experts and VA vocational education counselors will 
be available to meet individually with Service members, as needed.

    <bullet>  Entrepreneurship Track: Service members pursuing self-
employment in the private or non- profit sector will learn about the 
challenges faced by entrepreneurs, the benefits and realities of 
entrepreneurship, and the steps toward business ownership. Upon 
completing the Entrepreneurship Track, Service members will have 
developed the initial components of their business plan. After 
completing an optional eight-week online course, Service members and 
Veterans will be connected with a small business owner to mentor and 
guide them through their business start-up. This is a tremendous effort 
by SBA and we are grateful for their commitment to our Service members.
    <bullet>  CAPSTONE: A singular event which verifies the Service 
member meets the relevant Career Readiness Standards to posture him or 
her for success after military service. For example, the Service 
members must provide evidence that they are, indeed, financially ready 
by preparing a budget for the first 12-months post-separation; they 
must show a resume or application to enter college or technical 
training institute; and the member must have a completed ITP. The 
CAPSTONE Event remains in development by the Military Services. We 
anticipate they will have CAPSTONE in place, piloted, and ready for 
implementation by the end of fiscal year 2013.

    In November 2011, President Obama signed into law the VOW to Hire 
Heroes Act of 2011, and we are on track to implement TAP-related 
provisions by November 21, 2012:
    In accordance with the VOW Act, the new DOL Employment Workshop 
will be mandatory for nearly all Service members, including the Reserve 
and National Guard leaving active duty. However the law does allow for 
exemptions. The VOW Act states that the Secretaries of Defense and 
Homeland Security, in consultation with the Secretaries of Labor and 
Veterans Affairs, may grant exemptions to the mandatory participation 
requirement for Service members unlikely to face major readjustment, 
healthcare, employment, or other challenges associated with the 
transition to civilian life. The exemptions policy is in development 
and clearly states no Service member is exempt from receiving Pre-
separation Counseling and the VA Benefits Briefing.
    The VOW Act very wisely mandates services for demobilizing 
Reservists and National Guard members as they face unique 
circumstances. Reservists and National Guard members in demobilizing 
units frequently return to dispersed geographic locations. Many return 
immediately to previous employment, but others are returning to homes 
hit by economic downturn; and still others return to college endeavors. 
The challenge of the Department and its partners is to meet these 
Service members' needs while they are spread across the Nation, 
separated from a military support network.
    The VOW Act does not mandate participation in optional tracks. 
These are additional requirements to the VOW Act established by the 
Department, in collaboration with our interagency partners.
    The primary delivery method for the components of the program will 
be in person, in a traditional ``brick and mortar'' classroom setting. 
Nonetheless, because of the geographic disbursement of some Service 
members, the nature of the Reserve Component, and the requirement for 
mandatory participation by all Service members in TAP, the Task Force 
will develop virtual delivery methods for Transition GPS. Such delivery 
methods will need to meet quality standards to help ensure equivalent 
outcomes to brick and mortar instruction.
    To implement the Transition GPS, the Department conducted seven 
pilots of the CORE Curriculum and the revised DOL Employment Workshop 
this summer. The locations were:

        Randolph Air Force Base
        Jacksonville Naval Air Station
        New York Army National Guard, Utica, NY
        Fort Sill, OK
        Norfolk Naval Station
        Miramar Marine Corps Air Station
        Fort Hood Army Reserve

    On August 21-22, 2012, the Department piloted the Education Track 
at Randolph Air Force Base and the Entrepreneurship Track was piloted 
at Joint Base Anacostia-Bolling. The Department and VA anticipate 
piloting the Career Technical Track at Quantico Marine Corps Station 
this fall and a CAPSTONE proof of concept at Jacksonville Naval Air 
Station in December of this year.
    Preliminary results indicate the piloted curriculums are hitting 
the mark. There has been incredible support by the Military Services, 
Commanders, The State Adjutant General, NY, installation staffs, and 
our interagency partners. The revised DOL Employment Workshop, 
financial planning seminar, and VA Benefits Briefing have received 
positive feedback. However preliminary feedback indicates that we must 
align the curriculum across all partner modules to ensure seamless 
learning experience for Service members. We will take a hard look at 
this to ensure the best use of Service members' time.
    The pilots have also shown us that Service members value the 
information, Web sites, skills building, and practical work they must 
accomplish. For example, the Financial Planning Seminar exercise of 
developing a 12-month post-military budget illustrated the importance 
of financial planning and preparedness post military life. Service 
members have to calculate and document how they will financially meet 
the first 12 months of post-separation costs for expenditures such as 
healthcare, changes in the geographic cost of living, dependent care, 
taxes, and life insurance. In the pilots, Service members become very 
engaged in deliberate personal planning and preparation of their post 
military budget.
    Additional lessons learned include:

    <bullet>  Service members are learning to translate their military 
skills into civilian language and to navigate the DOL Labor Market 
Information (LMI) Web site to what employment opportunities exist in 
their geographical relocation areas.
    <bullet>  Commanders and installation leadership ``hands-on'' 
involvement are critical to the success of the pilots.
    <bullet>  Limiting the class to50 participants is a definite 
improvement and having classrooms equipped with audio-visual equipment 
and access to the internet enhances the learning environment.

    To help us garner grassroots feedback, we developed on-line 
assessment tools for Service members, facilitators, and the team of 
observers who attended each pilot. The Department also set up a ``TAP 
Auditor Sensing Session'' as part of our pilot evaluation. We asked for 
volunteers who already completed the legacy TAP, but are still on 
Active Duty, to go through the redesigned TAP and give us feedback. 
Overall, the Transition GPS scored high marks for improved information 
and skills building.
    The Department will complete the analysis of all pilot assessments 
by the end of September and will assemble a group of subject matter and 
functional experts to make adjustments to the curriculums by October. 
The modified Transition GPS Core curriculum will be in place by 
November 21.
Military LifeCycle Transition Model
    The measure of a successful transition does not reside solely on a 
Service member's participation in the new Transition GPS. Rather it is 
a shared responsibility with military leadership at every level within 
the command structure that ensures that Service members receive 
opportunities to prepare for or meet career goals. In tandem there must 
be strong personal involvement by the Service member and his or her 
family. We will continue to find new ways to not only reach our Service 
members and provide useful information to them, but also strive to 
provide them with skills for the job search and other challenges they 
will encounter as they transition to civilian life. A virtual delivery 
model offers great potential to allow Service members to both learn and 
refresh skills. The Department and our partners are exploring this 
capability.
    We learned that we cannot wait until the end of a Service member's 
military career to help him or her succeed after separation. We have to 
start early and give our members the tools they need to develop 
personal goals, and reach milestones throughout their careers.
    Therefore, starting in fiscal year 2014, the Department will 
migrate from our current TAP program, which occurs toward the end of a 
military career, to an innovative Military LifeCycle Transition Model 
that will start at the beginning of a Service members' military career. 
The objective of the model is for transition to become a well-planned, 
organized progression that empowers Service members to make informed 
career decisions and take responsibility for advancing their personal 
goals. Service members will be made aware of the career readiness 
standards they must meet long before their separation. They will be 
engaged throughout their military careers in mapping and refining their 
Individual Development Plans to achieve their military goals and their 
post-military goals for employment, education, career technical 
training, or starting their own business.
    Throughout the Military Lifecycle, Service members will have 
various ``touch points'' that will be mapped into their military 
lifecycle. For example, at their first permanent duty station or first 
drilling weekend, they will initiate their Individual Transition Plan 
(ITP) - a document they will update throughout their military 
lifecycle. Also during their first 12 - 24 months, they will be able to 
complete the Transition GPS curriculums (MOC Crosswalk, Personal 
Financial Seminar, Education, Career Technical Training, or 
Entrepreneurship) at various stages of their military lifecycle-- well 
in advance of separation. Deployments provide yet another ``touch 
point'' in the Military LifeCycle when we can provide Service members 
and their families with budgeting and personal financial planning 
skills that are necessary to help them improve and maintain their 
financial footing during such a challenging time in their military 
lives.
    When it is time for the member to separate, the ITP will migrate 
into the Individual Transition Plan--a roadmap that will assist the 
Service member with their transition process.
    The Military LifeCycle Model requires Service members to meet the 
same Career Readiness Standards (CRS) mentioned earlier and the CRS 
will be verified at a CAPSTONE Event prior to separation.
Credentialing and Licensing Task Force
    The Department is leading a new Credentialing and Licensing Task 
Force that was directed by President Obama this May in order to address 
gaps between military occupational specialties and civilian licensing 
requirements. The Task Force will do the following:

    <bullet>  Identify military specialties that readily transfer to 
high-demand jobs, such as aircraft maintenance, automotive mechanics, 
healthcare specialists, truck drivers, information technology 
professionals, and logisticians;
    <bullet>  Engage civilian, state, and local credentialing and 
licensing entities to close gaps between military training programs and 
credentialing and licensing requirements;
    <bullet>  Seek ways to partner with VA to help certain groups of 
veterans develop new skills in order to better compete in the private 
sector. For example, some infantry veterans - who have expertise that 
may not transfer readily to the business world - are acquiring 
information technology skills through a digital tutoring program 
developed by the Defense Advanced Research Projects Agency.

    Our goal is to help private sector employers appreciate veterans' 
valuable skills and experience, and to simplify the process for 
translating military skills and experience into private sector 
credentials. For our communities, there is an enormous return on our 
investment in these veterans. We began this effort with a focus on the 
manufacturing sector, and partnered with leading manufacturing 
credentialing agencies to enable up to 126,000 Service members to gain 
industry-recognized certifications for high-demand manufacturing jobs.
Conclusion
    In summary, the end-state for the redesigned TAP will be manifested 
by a population of Service members who have the tools and resources to 
empower themselves to make informed career decisions, be competitive in 
the workforce, and continue to be positive contributors to their 
community as they transition to civilian life.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
members of this Subcommittee for your steadfast support.

                                 <F-dash>
       Prepared Statement of Brigadier General Robert F. Hedelund
Executive Summary
    As our Nation's force in readiness, Marines always stand combat 
ready. The Commandant is committed to ensuring they also stand 
transition ready. The Marine Corps is transforming its approach to 
transition assistance to one that engages Marines throughout the 
military lifecycle. We will help our Marines develop long-term 
education and career goals and will equip them with the skills needed 
to successfully reintegrate into civilian life. Our first phase was to 
revolutionize our end of cycle transition readiness course, which now 
contains both core and track content that tailors a Marine's transition 
experience to his or her goals. We are confident in our approach and 
are working hard to ensure Marines and families are ready for the 
demands of their post-active duty lives.
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of this Subcommittee, thank you for this opportunity to describe the 
steps we are taking to transform our Transition Assistance Program 
(TAP). As our Nation's force in readiness, Marines always stand combat 
ready. The Commandant is committed to ensuring they also stand 
transition ready. Partnering with the Office of the Secretary of 
Defense and our sister services, the Departments of Veterans Affairs 
(VA), Labor (DOL), and other federal agencies, we are transforming our 
program from a single event toward the end of a Marine's service to one 
that engages Marines throughout their military lifecycle. From their 
entry into the Corps, we will help Marines establish long-term 
education and career goals and will equip them with skills to ensure 
they are career ready to successfully reintegrate into civilian life in 
communities throughout our country. Along the way, we will provide 
counseling and advisement services plus critical resources such as 
tuition assistance and credentialing for selected military skills. This 
is important work; we are determined to get it right.
Revolutionizing Our Approach to Transition Assistance
    We have been at this for some time. In keeping faith with our 
Marines and families, the 2010 Commandant's Planning Guidance directed 
a review and improvement of the transition assistance we were 
providing. The Commandant personally reviewed results of three 
Transition Assistance Operational Planning Teams and approved plans to 
correct deficiencies with legacy programs through a conceptual 
framework to improve services and integrate personal and professional 
development services.
    Effective transition assistance is not achieved simply by 
completing a training course at the end of one's service, thus simply 
checking a block. It requires continuous deliberation and planning of 
one's future goals, quality advisement, and a thorough understanding of 
available resources and tools. Because 75 percent of our Marines 
transition from active service after their first enlistment, we must 
ensure these Marines have the tools needed to return to civilian life 
and be productive citizens. Our Marine Lifecycle Model will engage our 
Marines at designated touch points during their service and will focus 
on the knowledge, skills and abilities they will need to effectively 
translate their Marine Corps experience into meaningful careers or 
transition to new pursuits. This model positions us to better support 
both the advancement of a Marine's military career and the eventual 
reintegration into civilian life upon leaving active duty service. 
Transition will no longer be a culminating event to a Marine's career; 
it will rather become a vital part of a Marine's continuous personal 
and professional development from recruit to veteran.
Our Revised Transition Readiness Course
    In migrating to a Marine Lifecycle Model, we directed our first 
plan of action at revolutionizing our TAP course. As our overall intent 
is readiness of the individual Marine, our redesign began with our 
transition readiness course. Initially piloted in the Marine Corps in 
January 2012, our five-day course incorporates the learning objectives 
and standards required by the Transition Goals Plans Success program, 
which requires Marines to reach certain milestones in order to be fully 
transition ready. Our incorporation of these objectives ensures we will 
comply with the requirements of the VOW to Hire Heroes Act and the 
President's Veteran's Employment Initiative (VEI).
    One of the essential elements of our course is track choice. Via 
their feedback, our Marines have been most supportive of these tracks. 
Therefore, our overall goal is to balance core and track content to 
allow Marines to individually tailor their training experience to meet 
their personal goals. Following completion by all attendees of 
mandatory core curricula including the DOL's Employment Workshop and 
the VA's benefits brief during the first three days of the program, 
Marines choose the track that is most aligned with their post-service 
goals and objectives: Education; Skills and Technical Training; 
Employment; or Entrepreneurship. During the remaining time of the 
course, Marines further explore their chosen pathway.
    The Education track, for example, gives more detailed information 
on the college admissions process, determining the right college or 
university, and important considerations in standardized testing and 
accreditation. The Entrepreneurship track gives advice on developing an 
effective business plan and finding sources of capital. The Skills and 
Technical Training track distinguishes certification, licensure and 
apprenticeship and assists with online resources. The Employment track 
expands upon the mandatory DOL Employment Workshop and explores in 
greater detail best practices in finding jobs including opportunities 
and hiring practices with the Federal Government. Because all tracks 
require Marines to interact in professional settings whether seeking 
work, applying for small business loans, or discussing education goals 
with school administrators, all tracks train Marines in effective 
interview skills. Marines may participate in the transition training 
curriculum more than once, must complete pre-work requirements to 
enhance the transition experience, and are encouraged to bring spouses.
    In August 2012, the Marine Corps piloted its revised course at 
Marine Corps Air Station Miramar and generated important lessons 
learned. These insights will form the basis of our revised transition 
program that will be implemented at other Marine Corps installations 
beginning in September 2012. The core elements of training will include 
pre-separation counseling, a crosswalk of military occupational 
specialty skills to civilian jobs, a re-designed DOL employment 
workshop, and a VA benefits brief. Our tracks will remain relatively 
unchanged. In partnership with the DOL and VA, transition training will 
be introduced at Marine Corps installations throughout Fiscal Year 
2013.
Making Marines Transition Ready
    We are confident that our Marine Lifecycle Model and our revised 
transition program will make our Marines transition ready. We are 
working hard to ensure they are prepared for the demands of the post-
active duty phase of their lives. Whether they choose to be reservists, 
students, business owners, or employees, our Marines will return as 
quality citizens with a plan for success. Thank you again for your 
sincere concern in our transition efforts, concern which was most 
recently demonstrated by the presence of two of your professional staff 
members, Mr. Jon Clark and Ms. Orfa Angelica Torres-Jaen, at our August 
Miramar pilot. Their insight and presence were helpful to both the 
pilot staff and the training participants. Cooperation in this effort 
is key because only by working together will we be able to provide our 
servicemembers and their families with the transition support they need 
after giving so much in dedicated service to our Nation.

                                 <F-dash>
         Prepared Statement of Brigadier General Jason T. Evans
    Chairman Stutzman, Representative Braley, members of the Committee, 
I would like to express my appreciation for this opportunity to appear 
before you to discuss the Army's Transition Assistance Program or TAP. 
This program was established by the enactment of the National Defense 
Authorization Act for Fiscal Year 1991. The program prescribed that the 
services would be required to provide Preseparation Counseling and 
Employment Assistance Training to all retiring and separating Soldiers 
and their Family members.
Redesigning Transitional Assistance Program for the Army
    The Army Career and Alumni Program (ACAP) is the Army's Transition 
Assistance Program (TAP) integrated and coordinated with The Department 
of Labor (DOL) and Veterans Affairs (VA). The overall goal of the TAP 
is to provide separating and/or retiring servicemembers and their 
families the information, skill set, and resources needed for a 
successful transition to the civilian sector. The TAP also provides 
civilian career development, personal and financial wellness plans, and 
life transition preparation to all separating and/or retiring Airmen. 
ACAP recently celebrated its twentieth year of providing transition 
services. Looking back at two decades of helping Soldiers to transition 
from the Army back into civilian life shows us how far we've come.
    In response to Public Law and in the face of increased reductions 
in the size of the military, ACAP began as a one-year pilot program in 
1990 to prepare Soldiers, Department of the Army (DA) Civilians, and 
their families for separation from the Army. ACAP started with six 
pilot sites, and quickly grew to eight, fielding 55 sites by the end of 
the pilot.
    As with all of American society, the events of September 11, 2001 
had a significant impact on ACAP and the provision of transition 
services. Most significantly, Reserve Component Soldiers--the Army 
National Guard and the Army Reserve - were beginning to play a much 
greater role in the Global War on Terror. As Guardsmen and Reservists 
grew to provide as much as 28% of the forces in the field, they would 
also need greater access to transition services. Just as they had 
mobilized for war, they would also need to demobilize and transition 
back to their civilian lives. Following 9/11, the Army's strategic and 
policy priorities were shifting and changing in response to world 
events. Flexibility continued to be a vital component of ACAP as it 
worked to ensure that Soldiers' transition needs were anticipated and 
met.
    The next major step along the road for ACAP was the 2010 United 
States Military Academy (USMA) study. The study resulted in a 
recommendation to the Vice Chief of Staff of the Army to place greater 
emphasis on providing a lifecycle of decision-based services to 
Soldiers through a program that unit commanders would be responsible 
for overseeing.
    As ACAP moves forward following the USMA Study, it has become a 
much more robust and rich program. ACAP began offering its services 
through a secure web portal so that Soldiers, DA Civilians, and their 
families could take advantage of online transition services safely from 
any location, worldwide. ACAP is now a commanders' program as unit 
commanders will have oversight of and track their Soldiers' progress 
through transition services. Commanders begin transition preparation by 
discussing military and long term goals during the Soldier's first unit 
of assignment. Commanders will identify a focal point/advisor for 
synchronizing the unit's transition program with the ACAP program. 
Additionally, ACAP is providing services that will be driven by a 
Soldier's life choices. So whether a Soldier chooses to seek private 
employment, pursue higher education or start his or her own business, 
ACAP offers tailored transition counseling and training for each path.
Core Curriculum and Career Readiness Mandatory Services
    In order to implement the re-design of the Transition Assistance 
Program (TAP) to meet the requirements of the VOW to Hire Heroes Act of 
2011 (VOW), and Transition Goals, Planning, and Success (GPS) as 
directed by the Presidential Veterans Employment Initiative Task Force 
(VEI TF), the Core Curriculum and Career Readiness Standards have been 
created, redesigned and improved to represent a life-cycle model to 
better assist our transitioning Soldiers:

    --No later than 12 months prior to planned separation, the Soldier 
will begin his or her preseparation counseling with an ACAP advisor. 
During this time, Soldiers are informed about transition services and 
benefits available to them. Each attendee will then begin the 
development of the GPS for employment and at the end of the first day; 
attendees will have built their GPS for their financial futures. They 
are also guided in developing an Individual Transition Plan (ITP) from 
a highly qualified counselor. We are also pleased that our Army Spouses 
can participate in the TAP GPS classes. Spouses receive the same 
transition and employment services as the military member. As we 
continue to move forward with this program, we will market the 
opportunity for spouses to attend via the Military Spouse Employment 
Program.
    --The Department of Labor Employment Workshop is a three-day 
workshop facilitated by trained subject matter experts. It is to be 
completed no later than ten months prior to the Soldier's separation 
date. The workshop provides attendees with the knowledge and skills to 
execute a successful job search. Guidance includes: resume and cover 
letter preparation, networking, identification of job opportunities, 
interviewing, and even salary/benefit negotiations. In order to enhance 
the participants' experience from this class, ACAP counselors provide 
various employment assistance seminars on private and Federal 
employment opportunities.
    --The Department of Veterans Affairs (VA) Education Benefits 
Briefing is a one-hour class regarding VA education benefits such as 
the Post 9/11 and Montgomery G.I. Bills. These briefings must be 
completed no later than six months prior to transition. The briefings 
are administered by the VA staff. The VA Benefits Briefing is a three-
hour workshop conducted by VA counselors for all separating and 
retiring Soldiers. These briefings cover all VA services and benefits 
available to Veterans, including information regarding the Disability 
Transition Assistance Program.
    --A six-hour long Financial Planning Seminar is conducted by Army 
Community Service Financial Counselors, and should be completed no 
later than ten months prior to transition. Topics and activities 
include financial planning, credit ratings, home ownership, healthcare 
and insurance planning, as well as estate and tax planning. The 
Financial Planning Seminars prepare participants' for financial 
independence following their military separation and provide the 
fundamental tools to build an integrated budget.
    --The Military Occupation Code (MOC) Crosswalk (a two-hour module) 
begins the process of identifying the skills, experience, credentials, 
and education obtained while in the military, and transitions them to 
civilian opportunities. Service members will learn about the different 
types of job-seekers and how to conduct a MOC crosswalk. Participants' 
will conduct a partnering activity and will crosswalk their individual 
MOC to civilian career opportunities identifying the gaps needed to be 
explored in order to be more employable and marketable in the civilian 
sector. This newly designed program was created to meet the 
requirements of the VEI TF and is currently being tested during the 
pilots.
    --`Value of a Mentor/Special Issues', a new program currently being 
tested at the pilot locations, is a 30-minute overview that discusses 
the mentor support structures and interpersonal relationships that 
occur during and after transition. This overview also connects the 
Service members with installation and community resources. This 
briefing must be completed no later than ten months prior to 
transition.
    --Finally, the Career Readiness Standard is the choice based 
CAPSTONE Event. A new program developed, and currently being tested at 
the pilots, to align with the VEI TF requirements. This assessment is 
completed by the Soldier no later than 90 days prior to transition. At 
the beginning of CAPSTONE, Soldiers complete a Transition-focused 
assessment to identify their confidence and preparedness levels for 
transition. Counselors review the assessment with Soldiers to identify 
any shortcomings regarding training and/or confidence level, thus 
allowing the Soldier to seek assistance. The CAPSTONE requirements 
serve to mitigate risks for possible negative outcomes after 
separation--such as unemployment, financial issues, social services 
issues and homelessness. Three CAPSTONE options will be available to 
Soldiers and Commanders: 1) a face-to-face/virtual counseling with an 
ACAP counselor; 2) a face-to-face with the commander; or 3) 
participation in a four-hour large event with guest speakers.

    The Military Life Cycle for Transition will be implemented no later 
than 2014. The initial concept for Military Life Cycle centers on 
paralleling career readiness with career progression by synchronizing 
Army Career Tracker (ACT) with Transition training and interfacing ACT 
to Transition counselors. Following the competition of the Day five of 
the training, the attendees select (based on career goals) one of the 
following as applicable: Technical Employment track (in development), 
Entrepreneurial track (for those going into business on their own), or 
the two-day Education track (should their immediate plans include 
attending school).
Implementing the Army Transition Plan
    The Army is implementing the Transition plan to incorporate the 
requirements set by the VOW to Hire Heroes Act of 2011 (VOW), the 
Presidential Veterans Employment Initiative Task Force (VEI TF) 
recommendations, and the DA execute order (EXORD) to provide robust and 
timely transition.
    The Army will execute three Choice-based transition efforts to 
align the new TAP with the EXORD, VOW, and VEI TF requirements: 1) 
reinforcing existing virtual capabilities; 2) reinforcing existing Army 
Career and Alumni Program Centers; and 3) establishing Forward 
Transition Support Teams and Mobile Transition Support Teams.
    By reinforcing and updating virtual ACAP capabilities, this remote 
outreach provides Soldiers a 24/7 opportunity to begin their separation 
with a highly qualified ACAP counselor.
Testing the pilots
    The Army developed a Transition pilot in preparation for the 
changes necessitated by transition EXORD, VOW, and VEI TF, etc. The 
pilot program is being tested at one Active Component (AC) location 
(Fort Sill, OK), five Reserve Component (RC) locations: Demobilization 
sites at Utica, NY; North Fort Hood, TX; and Camp Shelby, MS and three 
additional locations (called HOOAH locations) focusing on Virtual 
Career Fairs. The Army Transition pilot at Fort Sill reached completion 
on August 30, 2012 and two RC pilots are complete (107th MP CO, ARNG 
and 436TH TC BN, USAR). Three other RC locations will be completed in 
September 2012, and HOOAH locations will host seven Virtual Career 
Fairs from September 2012 through January 2013.
    There are four main Transition pilot objectives: 1) Evaluate the 
ability to manage and sustain increased transition assistance 
throughput; 2) Evaluate curriculum quality and presentation; 3) 
Evaluate Soldier feedback and tracking system; 4) Evaluate a connection 
mechanism to link Soldiers and potential employers.
    There are also several notable success stories as a result of the 
Transition pilot. For example, the workloads and throughputs have 
remained manageable (which bodes well for Army-wide implementation); 
timing and delivery of material has improved with every week of the 
pilot; and pilot attendance tracking at local levels has also become 
more efficient.
    As the Transition pilot is ongoing, the objectives are still being 
measured and assessed. Among many other considerations, the Army is 
examining exemptions for Active Component and Active Guard Reserve 
Soldiers, how to eliminate redundancies and improve relevance in 
curricula among stakeholders, proper sequencing/presentation of 
information, time requirements, attendance tracking, and facilitator 
preparedness.
    One of the most valuable lessons learned from the pilots is that 
segregating Soldiers into cohorts by age/rank increases interaction 
among Soldiers and counselors/facilitators. The discussion of these 
issues is not exhaustive, and the Army is continuously re-evaluating 
the pilots until completion. Currently, ACAP surveys are being used for 
Soldier metrics collection and to capture and review Soldier comments. 
The Office of the Secretary of Defense will release its survey results 
upon conclusion of the pilot period.
Conclusion
    We have a sacred commitment to ensure that the Soldiers that have 
sacrificed so much in service to America's defense are taken care of as 
they begin the next chapter of their lives. To conclude, I wish to 
thank all of you for your continued support. The Army is committed to 
being the leader of the Department of Defense transition efforts by 
finding the right solution for our Soldiers and our Veterans. Chairman 
Stutzman, and members of the sub-committee, I thank you again for the 
opportunity to appear before you, and I look forward to your questions.

                                 <F-dash>
                Prepared Statement of Mr. Edward Cannon
    Chairman Stutzman, Congressman Braley, and distinguished members of 
this Subcommittee, I would like to thank you for this opportunity to 
testify about the Navy Transition Assistance Program (TAP) and our 
efforts to successfully transition Sailors to civilian life and 
employment.
    The Navy separates or retires over 39,000 Sailors each year from an 
overall force strength of approximately 322,000. The average age of our 
Sailors is 29 years, and over half are married. Our Sailors are in 
diverse career fields including the Navy SEALs, air traffic 
controllers, healthcare, electronics technicians, and nuclear 
engineers. The Navy is an expeditionary force that routinely deploys. 
Many Sailors are sought after by civilian employers because of the 
training and skills they obtain in the Navy, and we have extensive 
retention programs in place to man the Fleet with Sailors who possess 
these critical skills. Over 29,000 Sailors possess post-secondary 
degrees, with 47,000 using Tuition assistance. Our Reserve Component 
Sailor is also more senior with an average age of 37, 88% are above the 
pay grade of E-3, and 30% have bachelor degrees. Ninety percent of our 
Reserve Sailors are employed or attending school and two-thirds have 
prior active service.
Current Navy Transition Assistance Program
    Under the current Navy transition process model, Sailors may begin 
the transition process 24 months (retirees) or 12 months (separating) 
prior to separation; however, they are required to begin preparation 
for their transition to civilian life no later than 90 days before 
separation. During this period, each transitioning Sailor must go 
through mandatory (by law, Title 10 (Sec.  1142)) pre-separation 
counseling to introduce them to the programs and services available to 
assist them. Sailors currently complete a checklist that documents the 
counseling received as well as the additional services and briefings to 
which Sailors are referred based upon their individual needs.
    The Navy currently provides a 4-5 day Transition Assistance Program 
(TAP) Workshop at installations world-wide via Fleet and Family Support 
Programs. In FY-11, the Navy had 33,000 attendees (85% of separating 
Sailors) voluntarily attend TAP Workshops. Depending upon the 
installation size and population, TAP Workshops may be tailored for 
separation, involuntary separation, retirement, or seniority. Frequency 
of classes is dependent upon installation population size. The current 
Navy TAP workshops consist of the Department of Labor (DOL) Employment 
Workshop, the Department of Veterans Affairs (VA) Benefits briefing, 
Disabled Transition Assistance Program briefing, and Navy specific 
topics. Additionally, Fleet and Family Support counselors also provide 
individual transition counseling and resume and other transition-
related workshops as requested.
    The Navy Fleet and Family Support Centers also conduct First Term 
and Mid-Career Workshops (CONSEP--Career Options and Navy Skills 
Evaluation Program). These four day courses are designed to assist 
active duty servicemembers in achieving Navy and future civilian career 
goals. The training topics provide vital information on career-making 
decisions, upward mobility, college and certification opportunities, 
apprenticeships, as well as financial management and investment 
strategies which enhance the ability to achieve personal and 
professional success. In addition, the Navy is working with the 
Military Credentialing and Licensing Task Force to identify 
opportunities for more than 400,000 Active and Reserve Sailors to earn 
civilian occupational credentials and licenses prior to separation.
    For our recent force shaping initiative, the Navy supplemented 
existing transition services by contracting with a civilian 
outplacement service company to provide personalized career coaching 
and job search assistance to these Sailors that were involuntarily 
separated.
Re-Designed Transition GPS (Goals, Plan, Succeed) Program
    In collaboration with the Office of the Secretary of Defense, VA, 
DOL, Department of Education, and the Small Business Administration, 
the Navy is conducting pilot programs for the five-day curriculum of 
the redesigned Transition GPS (Goals--Plan--Succeed) and the CAPSTONE 
event. The elements of the re-designed Transition Assistance program 
are:

    1) Career Readiness Standards (CRS)--A set of common, discreet and 
measurable transition ``readiness'' standards that Service members must 
meet prior to separation from active or reserve duty.
    2) Transition Goals, Plan, Succeed (GPS) Program--A series of 
training that includes Pre-Separation Counseling, three-day Department 
of Labor Employment Workshop (DOLEW), and two-day workshop comprised of 
VA Benefits Briefings, Financial Education, Military Occupational Code 
Crosswalk, Family/Special Issues, and an Individual Transition Plan 
(ITP) review. Additionally, participants may select from optional two-
day training tracks in Education, Entrepreneurship, or Technical 
training.
    3) Military Life Cycle--Incorporate preparation for Service 
members' career transition throughout their military service - from 
accession through transition from service and reintegration back into 
civilian life.
    4) CAPSTONE Event--A forum provided for Service members to validate 
Career Readiness Standards are met, and to refer members as needed for 
additional training prior to separation or retirement.
Navy Transition Assistance Core Workshop Curriculum
    The mandatory Navy Transition GPS Core Workshop is a five day 
curriculum. On Day One, Navy transition staffs cover the following 
topics:
    1). Transition Assistance Overview: includes a Welcome Address / 
Workshop Schedule of Activities, Topics for Family Considerations/
Special Issues, the Value of a Mentor, and a review of available Fleet 
and Family Support services.
    2). Military Occupational Crosswalk: The Military Occupational Code 
(MOC) Crosswalk is a module on translating military training and 
experience into skills appropriate for civilian jobs. Upon completing 
this module, Sailors will have a document recording their military 
career experience and skills; translation of their military occupation 
experience to civilian sector skills; and identification of gaps in 
their training and/or experience that need to be filled to meet their 
personal career goal. The crosswalk will allow Sailors the ability to 
develop a clear line of sight between their military skills and 
training and career fields of their choice.
    3). Financial Planning: Upon completing the financial planning 
seminar, Sailors will be prepared to build an integrated 12-month 
budget that reflects post-military employment, education, or training 
goals. Instructors and financial planning staff will be available for 
follow-up counseling as requested by the Service member.
    The DOL delivers the approved Employment Workshop Days Two thru 
Four. On Day Five, the VA conducts the approved VA Benefits and 
Applications briefing and Sailors review progress on their Individual 
Transition Plan.
Optional Education, Technical Training and Entrepreneur Workshops
    In addition to completing the Transition GPS Core Curriculum, 
transitioning Sailors will also have the option of participating in a 
series of two day tailored tracks within the Transition GPS curriculum: 
(1) an Education track, for those pursuing a higher education degree; 
(2) a Technical and Skills Training track, for those seeking job-ready 
skills and industry-recognized credentials in shorter-term training 
programs; and (3) an Entrepreneurship track, for those wanting to start 
a business.
The Navy CAPSTONE Seminar
    The Navy will host a pilot on our CAPSTONE Event to validate the 
process. Ninety days before their separation from military service, 
Sailors will participate in this CAPSTONE seminar, which will verify 
that transitioning Sailors completed the Transition GPS curriculum and 
achieved Career Readiness Standards. Staff will also review potential 
challenges Veterans may face, and review the tools and resources 
available to them that they learned about in the Transition GPS 
Workshops. Sailors who require additional assistance will be referred 
to supplemental training opportunities. In addition, through the 
CAPSTONE event, all Sailors will be offered a `warm handoff' to 
appropriate government agencies and organizations that will provide 
them continued benefits, services, and support as veterans.
Military Life Cycle Transition Model:
    The new transition program will incorporate career readiness and 
transition preparation into the entire span of a servicemember's 
career. In the past, transition and preparation for the civilian 
workforce occurred late in a servicemember's time in the military - 
near the point of separation. Under this new program, these concepts 
will be incorporated earlier to ensure that the counseling, 
assessments, and access to resources to build skills or credentials 
occur at earlier stages of a servicemember's military tenure.
    The Navy will incorporate aspects of transition assistance in the 
Navy Retention and Career Development program. The current career 
development program is designed to improve the ability of our Sailors 
to achieve their professional goals. Individual Career Development 
Plans are developed based upon Career Roadmaps for each enlisted 
Rating. The Rating Roadmap includes information on Skill Training, Job 
Description, Personal and Professional Development, Career Development 
Boards, the Navy Qualifications and Certifications, Civilian 
Occupations and the Navy Credentialing Opportunities On Line, US 
Military Apprenticeship Program, Professional Military Education, and 
Voluntary Education.
    The Navy will incorporate aspects of the transition assistance 
program into our Career Development Boards, which are routinely held 
during key points in a Sailor's career. For example, we will ensure 
that Sailors: (1) are registered for and know about eBenefits;(2) while 
on active duty, are informed about the VA benefits they are eligible 
for during active duty as well as after they become Veterans; and (3) 
understand the importance of maintaining their own personnel records 
and obtaining credentials and certifications for the skills obtained in 
the Navy. Essentially, a Sailor's Individual Career Development plan 
should become their Individual Transition Plan. The Career Development 
Program is a key component of transition--qualified, successful Sailors 
are sought after as potential qualified, successful employees after 
separation
Summary
    Thank you for the opportunity to discuss the Navy's Transition 
Assistance Program with you. We are improving the Transition Assistance 
Program with our Agency partners. The Navy wants and needs to retain 
trained, qualified Sailors to continue to protect and serve the 
country. For those who choose to separate or retire, we are committed 
to ensuring that they leave the Navy with tools to be successful in 
their career transition

                                 <F-dash>
         Prepared Statement of Brigidier General Eden J. Murrie
    The Air Force Transition Assistance Program (TAP) is a continuous 
partnership with the Department of Defense (DoD), Department of Labor 
(DOL), the Department of Veterans Affairs (VA), the Department of 
Education (DoE), the Small Business Administration (SBA) and the Office 
of Personnel Management (OPM). The overall goal of the TAP is to 
provide separating and/or retiring servicemembers and their families 
the information, skill set, and resources needed for a successful 
transition to the civilian sector. The TAP also provides civilian 
career development, personal and financial wellness plans, and life 
transition preparation to all separating and/or retiring Airmen.
    Historically, our program has been successful. In FY11, the TAP 
participation rate for retiring and/or separating members exceeded 90 
percent. This success was due in part to our partnerships with DOL, VA, 
DoE, SBA and OPM. We also have a long and successful partnership with 
our Veterans Service Organizations (VSO). The VSOs have provided 
multiple forms of transition services (transportation to medical 
appointments, assistance with completing VA claims, hospital 
visitation, and so forth) for our Service members for years and 
continue to be a great partner to the men and women of the Air Force.
    Our partnerships are critical as we embrace the re-directed TAP 
initiatives outlined by the VOW to Hire Heroes Act of 2011 (VOW) and 
Veteran Employment Initiative (VEI). While our leadership has 
collaborated with other Agencies in detailing implementation plans and 
requirements, our Airman and Family Readiness and Education Center 
professionals are focused on the operational aspects of addressing the 
VOW and VEI. Additionally, we will build on our current successes as we 
expand our TAP with the re-directed VOW/VEI. In our new and improved 
TAP, all attendees will have accomplished their pre-separation 
counseling prior to attending the DOL Employment Workshop. Day one of 
the TAP is for the Airman and Family Readiness Center (A&FRC) 
representatives to provide an overview for the week. They also present 
topics for discussion and consideration (family consensus, changes in 
life skills, role perception and changes, special issues--suicide 
prevention, alcohol and drug abuse, thrill seeking behavior following 
deployments, children with special needs, disability issues--and the 
value of a mentor) to assist our members. A&FRC representatives will 
have the attendees begin to think about how their skills and 
experiences will translate into civilian life. Each attendee will then 
begin the development of the Goals, Plans and Success (GPS) for 
employment and at the end of day one, attendees will have built their 
GPS for their financial futures. Attendees then incorporate knowledge 
gained and decisions made on Day one into their Individual Transition 
Plan (ITP). Day two thru day four is the DOL employment workshop. Over 
the course of three days, attendees prepare their change management 
plan, begin developing their job search plan, as well as engage in 
career exploration and validation, build a resume, navigate the Federal 
hiring process, practice interview skills and receive a post-interview 
analysis. Day five is the VA benefits brief on VA education and 
benefits. Following the completion of day five of the training, the 
attendees select (based on career goals) one of the following as 
applicable: Technical Employment track (in development), 
Entrepreneurial track (for those going into business on their own) or 
the two-day Education track (should their immediate plans include 
attending school).
VOW TO HIRE HEROES ACT OF 2011
    We are on target to be fully compliant with the VOW Act by the 21 
November 2012 implementation date. Transition Assistance program 
support and services will be completed and verified via a CAPSTONE 
event (still in development) optimally occurring no later than 90 days 
prior to separation.
    With the new requirements from the VOW Act, we have leaned forward 
and trained all of our active duty A&FRC and Education staffs along 
with the staffs for the Air National Guard and Air Force Reserve to 
execute the requirements. This training includes the re-designation of 
the DOL Employment Workshop, completion of the ITP and transition 
process for Air National Guard and Air Force Reserve personnel. We have 
authorized our major commands to advance hire in Fiscal Year 2013 to 
ensure we are fully staffed by Fiscal Year 2014.
    We held the first TAP Pilot at Joint Base San Antonio - Randolph in 
July 2012. The Pilot program consisted of a new Employment Workshop and 
VA curriculum. We had thirty-two attendees from the active duty, Air 
National Guard and Air Force Reserves completing all blocks of this 
program. The blocks of instruction included the Transition Overview, 
Military Occupation to Civilian Crosswalk, Financial Planning Seminar, 
Topics for Family Considerations, VA Education Benefits Briefing, VA 
Benefits Briefing, Value of a Mentor and VA Benefits Sign-Up. We also 
hosted members of the OSD, DOL, SBA, VA, and Air National Guard and 
Reserves as observers during the Pilot. This Pilot program was 
evaluated in six dimensions: (a) curriculum, (b) facilitators, (c) 
facilities, (d) logistics, (e) compliance and OSD integrated 
guidelines, and (f) local MOU with partner agencies. At the end of each 
day, the team met and discussed the modules covered that day and 
summarized comments to help ensure every effort was captured to render 
the best support for our total force members. Overall, the Pilot 
program was a tremendous success, with detailed lessons learned and 
critical recommendations provided to OSD. The OSD staff compiled, 
assessed data from the Pilot and provided feedback to our sister 
Services to help ensure consistent, quality support for our members at 
every installation as we roll out VOW/VEI.
    We are also pleased that our Air Force Spouses can participate in 
the TAP Goals, Plans and Successes (GPS) classes. Spouses receive the 
same transition and employment services as the military member. As we 
continue to move forward with this program, we will market the 
opportunity for spouses to attend via the Spouse Employment Program.
    While we maintain our efforts to meet all requirements for the VOW 
Act, we also continue to press forward to meet the White House VEI, 
which requires the implementation of four overarching recommendations 
to improve the career readiness of members leaving the military. As of 
today, we are on-track to meet all the VEI requirements by 1 October 
2013 implementation date. These requirements include developing Career 
Readiness Standards, GPS Program, Military Life Cycle, and a CAPSTONE 
Event.
TOTAL FORCE
    The Air Force Reserve and Air National Guard and active duty are in 
lock step and focused on ensuring we are all compliant with the VOW 
act. The Air Force Reserve Wings, co-located on active duty bases, are 
collaborating with the active duty A&FRC's as an equal partner under 
the Total Force concept. Those Air Force Reserve members not located at 
an active duty bases may participate at other service installations 
(Army, Navy, etc.) or the Reserve hub at Robins AFB Georgia. Air Force 
Reserve members will be provided pre-separation counseling, mandatory 
VA briefings, Military Occupation to Civilian briefings and further TAP 
briefings and applicable VEI employment, education, or entrepreneurial 
tracks.
    The Air National Guard estimates 6,000 Guardsmen will qualify for 
the TAP each Fiscal Year after serving on Title 10 (T10) orders for at 
least 180 consecutive days or more. The majority of the Guardsmen will 
meet exemption requirements (e.g., they already have confirmed 
employment, education plans or previously attended TAP) and may opt out 
of the TAP. The primary requirement for these individuals will be pre-
separation counseling prior to T10 orders. The remainder of the Airmen 
will complete pre-separation counseling prior to beginning T10 orders 
and will attend TAP upon completion of T10 orders. The Airmen located 
at active duty bases will continue to collaborate as an equal partner 
under the Total Force concept. Airmen at stand-alone Air National Guard 
wings will attend TAP at an active duty base (of any service) closest 
to them or at one of two Air National Guard wings, Fort Worth, Texas or 
Phoenix, Arizona; whichever best meets the citizen Airman's schedule. 
Further, once CAPSTONE events are on line, the Air National Guard plans 
to hold these events within the Airman's state; preferably as close as 
possible to their duty location, to ensure each Airman gets the chance 
to meet and have a ``warm handoff'' with local representatives (e.g., 
DOL, VA, etc.).
    Again, we are committed to Total Force collaboration (active duty, 
Air Force Reserve, and Air National Guard) for TAP. This collaboration 
includes a keen focus on credentialing programs that assist separating 
Service members in their transition to civilian life and successful 
reentry into the Nation's workforce. Our enlisted Airmen begin to earn 
college credit from the moment they complete basic training, 
progressing through advanced technical training, to include 
professional military education and off-duty education pursuits. The 
Community College of the AF, Technical School Training, Voluntary 
Education, and On-The-Job training supports credentialing that 
transfers to the civilian sector as the Airman begins their military to 
civilian transition. To improve outcomes in the transition to civilian 
work, DOD is using a military crosswalk, which is essential in 
detailing how a member's military specialty/duties translate to 
civilian job requirements. DOD and the Armed Services, are partnered 
with multiple private sector credentialing bodies that are working 
together to ensure that civilian industry benefits immensely by 
receiving highly trained, qualified, experienced, and disciplined 
employees while supporting the successful transition of the Airman and 
their family.
CONCLUSION
    We remain focused on providing our Total Force personnel, who are 
separating or retiring, with the information, skills, and resources 
needed for a successful transition to the civilian sector. We are also 
committed to providing this support in new and innovative ways. Our 
Airmen and families who have sacrificed much for this Nation deserve no 
less. Again, we thank the Subcommittee for the opportunity to share 
information of Air Force's approach to implementing the re-directed 
Transition Assistance Program under the VOW and VEI initiatives.

                                 <F-dash>
            Prepared Statement of Rear Admiral Daniel Neptun
    Good morning Chairman Stutzman, Ranking Member Braley and 
distinguished members of the Subcommittee. It is a pleasure to appear 
before you today to discuss the Coast Guard's Transition Assistance 
Program.
    Transition assistance was established for Coast Guard military 
personnel in October 1994 to comply with the National Defense 
Authorization Act for Fiscal Year 1995 (Public Law 103-337). This law 
requires that all separating and retiring servicemembers have access to 
transition assistance services and that members who are involuntarily 
separated receive specific benefits. Military personnel from all of the 
Armed Forces share similar needs when transitioning from active duty to 
civilian life. As such, many features of the Coast Guard's Transition 
Assistance Program are similar to what the Department of Defense (DoD) 
provides its transitioning members. There are, however, some important 
differences between the needs of transitioning Coast Guard personnel 
and their DoD counterparts that should be highlighted.
    When compared to the other Armed Forces, the Coast Guard is 
relatively small in size and has broad geographic dispersion. As 
discussed below, this has an impact on the manner in which our 
Transition Assistance Program is implemented and delivered. In 
addition, many of the skills and experience our Coast Guard personnel 
acquire over the course of their careers, ranging from administrative, 
acquisition, and human resource, to law enforcement, maritime safety 
and security, and environmental response, are often considered readily 
transferrable to the civilian workforce. Finally, although some Coast 
Guard members have served overseas in war zones, the Coast Guard does 
not have the same proportion of combat veterans as the other Armed 
Forces. All of these factors are considered in developing and 
delivering a Transition Assistance Program that best serves Coast Guard 
members.
    The Coast Guard understands that irrespective of the differences 
between the other Armed Forces and the Coast Guard, providing a robust 
Transition Assistance Program to our members is critical. As such, we 
have taken steps to ensure our men and women are receiving the support 
they need to make their transition successful. Currently, the Coast 
Guard provides mandatory, pre-separation counseling for our 
transitioning members, and we strongly encourage attendance at a 
Transition Assistance Program seminar for each member within a two year 
window prior to separation or retirement.
    The Transition Assistance Program begins with pre-separation 
counseling at the unit level. Each unit Commanding Officer is required 
to ensure separating and retiring members, and their families, receive 
the transition benefits and services to which they are entitled. A 
Command representative is required to meet with all members separating, 
retiring, or entering the Disability Evaluation System approximately 
180 days before separation and not later than 15 days after official 
notification of separation. As directed under Coast Guard policy, pre-
separation counseling must occur at least 90 days prior to separation. 
During pre-separation counseling, the command representative assists 
members in achieving educational, training, and employment objectives, 
as well as those of the spouse, if applicable. Depending on the desires 
expressed by the member during pre-separation counseling, the Command 
either directs the member to the appropriate office for delivery of 
services, or provides additional counseling on specific benefits and 
programs as requested.
    Formal Coast Guard Transition Assistance Program seminars are 
delivered at each of our 13 Health, Safety and Work-Life Regional 
Practices across the United States. Each of these designated transition 
sites features a Regional Manager who is responsible for managing 
overall individual and family support programs, and one Transition and 
Relocation Manager who coordinates the Transition Assistance Program 
for their area of responsibility (AOR). The Coast Guard typical AOR 
encompasses several states. Each Transition and Relocation Manager is a 
certified International Job and Career Coach and is generally 
responsible for the Transition Assistance Program, Relocation 
Assistance Program, and the Spouse Employment Assistance Program.
    Coast Guard Transition Assistance Program seminars have been 
developed in coordination with DoD, Department of Labor (DOL), and 
Department of Veterans Affairs. These seminars provide instruction on 
skills identification, resume preparation, interview techniques, and 
veteran entitlements, and are typically five days in length. The first 
three days include the core curriculum focused on the job search 
process, which is provided by DOL, or is based on the DOL curriculum. 
The other two days feature presentations on Veterans' benefits 
including healthcare services and enrollment and educational 
opportunities. The Coast Guard transitions approximately 3,000 active 
duty and reserve members annually. Over the past several years, about 
1,600 - or just over half of these members - have elected to attend a 
transition seminar to obtain information on resources for employment, 
educational and Veterans' benefits.
    To comply with the VOW to Hire Heroes Act of 2011 by the required 
date of November 21, 2012, the Coast Guard is developing plans to 
increase the number of scheduled seminars we offer. Currently, the 
number of participants who attend Coast Guard seminars can range from 
50 participants in some locations to as few as 15. Moving forward, it 
will be critical for us to ensure all transitioning members have access 
to the information presented at these seminars. However, the dispersed 
location of Coast Guard units presents unique challenges for the Coast 
Guard. To address these challenges, the Coast Guard is exploring 
alternative delivery methods for members that cannot physically attend 
a seminar. These options will ensure that the information from 
Transition Assistance Program seminars can be provided using other 
methods, such as members receiving direct counseling with the 
Transition and Relocation Manager through a ``virtual'' environment, or 
through other electronic media. The Coast Guard is currently working 
with DoD, DOL and the Department of Veterans Affairs to develop a 
comprehensive virtual solution for members who, for whatever reason, 
cannot attend an actual seminar in person.
    The goal of the Coast Guard's Transition Assistance Program is to 
assist servicemembers and their families in making an informed and 
effective transition from military service to civilian life. An 
integral aspect in this vital effort is to ensure separating members 
are made aware of, and have access to, the numerous programs and 
services available to assist them in the transition process. In an 
effort to continually improve our Transition Assistance Program and 
meet the needs of our transitioning members, we look forward to 
continuing the positive working relationship with DoD, DOL and the 
Department of Veterans Affairs in sharing new ideas and tools.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

                                 <F-dash>
                        Questions For The Record
    Inquiry from Honorable Marlin A. Stutzman, Chairman, Subcommittee 
on Economic Opportunity to VA Office of Congressional and Legislative 
Affairs
    Question: Can VA provide a report on how it monitors the 
contracting process, most notably with CBOCs, for example, are bids 
vetted against VAOIG findings in an effort to weed out bad actors?
    Response from VA Office of Congressional and Legislative Affairs
    Response: Prior to award of any lease contract, including Community 
Based Outpatient Clinic (CBOC) or Outpatient Clinic (OPC) leases, the 
proposed awardee is vetted by the contracting officer through a variety 
of pre-award clearances, including a search of the government-wide 
System for Award Management (SAM). SAM requires all contractors doing 
business with the government to be registered and maintain information 
about their company in the database, to include their online 
representations and certifications (ie. are they a small business 
concern, etc). All contractors who are debarred from doing business 
with the government are also listed on the system, which ensures that 
VA does business only with vendors who have not been debarred. In 
addition to SAM, VA verifies the financial capability of the proposed 
awardee in two ways. First, as part of the solicitation for offers, VA 
requests detailed information about and points of contact for the 
proposed lending institution that will finance the project. VA reaches 
out and verifies the accuracy of the information provided. Also, VA 
obtains a report from Dun and Bradstreet Inc. to review the financial 
viability of the proposed awardee. If this report highlights any 
concerns, additional due diligence is undertaken to ensure that the 
proposed awardee will be able to perform following award. Lastly, for 
contracts over a certain dollar threshold, VA formally contacts the 
Department of Labor to ensure the contractor has operated in compliance 
with all Equal Opportunity Employment laws and regulations.

                                 <all>

</pre></body></html>
